No.

fflaurf nf ilp $Lmfab
Robert Grundstein Esq.
vs
Lamoille Superior Court Docket Entries/Orders dated
1-24-2012 and 1-8-2013 in Lecv 148-8-05 (P.O. Box 570,
154 Main Street, Hyde Park, VT 05655;
Lamoille Superior Court Docket Entry/Order dated 6-15-16
(Appellate No. 2016 VT 242) in Lecv 87-4-10;
Lamoille Superior Clerk of Courts, P.O. Box 570,
154 Main Street, Hyde Park, VT 05655,
as Docket Administrator
Vermont Attorney General T. J. Donovan,
109 State Street, Montpelier, VT 05609-1001
Randall Mulligan, 591A Cricket Hill Road,
Hyde Park VT 05655
On Petition for Writ of Certiorari
to the U.S. Second Circuit Court of Appeals
APPENDIX TO PETITION
FOR WRIT OF CERTIORARI
Robert H. Grundstein Esq.
18 Griggs Road
Morrisville, Vermont 05661
rgnmds@pshift.com
802-397-8839
Attorney for Petitioner

David Boyd Esq./Assistant AG
109 State Street
Montpelier, VT 05609
david.boyd@vermont.gov
802-828-5529
Attorney of Record on Appeal

1
Federal District Court
Vermont
Robert Grundstein Esq.
18 Griggs Road
Morrisville, VT 05661
802-397-8839/rgrunds@pshift.com
5:17 cv 00151 gwc
Plaintiff
vs
Lamoille Superior Docket Entries/ Orders dated 1-24-2012
and 1-8-2013 in Lecv 148-8-05
Lamoille Superior Docket Entry/ Order dated 6-15-16
(Appellate No. 2016-242) in Lecv 87-4-10
Lamoille Superior Clerk of Court as Docket Administrator
(Counts I through VII)
Lamoille Superior Court
P.O. Box 570
154 Main Street
Hyde Park, VT 05655
State of Vermont /Attorney General T.J. Donovan
109 State Street
Montpelier VT 05609-1001
Verified Complaint
1. Temporary Restraining Order/Injunction under
Civ. Rule 65 (Count I Only)
2. Declaratory Relief under 28 USC 22011(A11 Counts)
3. Injunction under Ex Parte Young 209 US 123 for Violations
of 42 USC 1983 (Counts I-V and VII-VIII)
Parties to This Action
Plaintiff
Defendant(s)
Robert Grundstein Esq.
Lamoille Superior Court
18 Griggs Road
Docket Entries
Morrisville VT 05661
Lamoille Superior Docket
802-888-3334
Administrator
rgrunds@pshift. com
Attorney General T.J. Donovan
109 State Street
Montpelier, VT 05602
802 828-3171

2

Table of Contents
Page
1. Statement of Jurisdiction
3
2. Introduction....................
3
3. Counts.............................
4-14
Count I............................
4
Temporary Restraining Order/Preliminary Injunction/
Declaratory Relief
Illegal Taking of Fee Interest in Real Property
without Jurisdiction or Due Process
Count II.............................................................................. 5
Declaratory Reliefilnjunction
State Cannot Charge Attorney Fees without Due Process
Notice and Hearing
Unconstitutional Practice Custom and Usage
Count III............................................................................. 6
Declaratory Relief/Injunction re: Lecv 87-4-10
Order of June 15, 2016
$84,000.00 Judgment and Award of
Attorney Fees with out Notice of Charges
and without Evidence or Compliance with
Civ. Rule 11 Is Unconstitutional
Count IV...............................................................
10
Declaratory Relief
Vermont Civ. Rule 8 is Unconstitutional
and Should Be Amended
A Complaint or Counterclaim Should Articulate
Money Damages in a Specific Amount
Count V................................................................
11
Declaratory Relief/Injunction
Violation of Vermont and Federal Law
against Excessive Fines
Count VI...............................................................
12
Claim under State Law Procedure
Party Claims Should Be Dismissed if Party
Refuses to Do Court Ordered ADR
Count VII..............................................................
13
Judge Bias Spoils Due Process
Need Peremptory Right of Recusal

3

Count VIII.....................................................
Vermont Expedited Appellate Docket is
Statistically Biased against Appellants
Violates 14th Amendment Equal Protection
4. Verification....................................................
5. Certificate of Notice and Mailing.................

13

14
15

Statement of Jurisdiction
Federal Questions under 28 USC 1331
Grundstein brings this claim pertinent to an
unconstitutionally vague and unpredictable “use, custom
and practice” of judge damages and sanctions imposed
without Jurisdiction, Due Process Notice and Hearing and.
unreferenced to any objective standard such as a state
statute or court rules. “Inherent Court Powers” do not give a
judge the right to levy fines and take away property without
Constitutional limitations and protections. A judgment
entered without procedural Due Process is void ab
initio, “Griffin v Griffin” 327 U.S. 220.
This action cites violations of federal constitutional
rights guaranteed in the 1st, 5th, 6th 8th and 14th amendments
to the Constitution. It also asks relief under the Federal
. Declaratory Relief statute, 28 USC 2201 and “Ex Parte
Young”.
Introduction
State Judge Cannot Remove Property Interests
without Due Process/Notice and Hearing
State Judge Cannot Remove Property Interest without
Jurisdiction
State Court Imposition of Attorney fees is an
“Unconstitutional Usage” exercised without Due Process
Notice and Hearing
Cannot Charge Attorney Fees without Civ. Rule 11
Compliance and Other Procedural Prerequisites
The general rule, under state and federal law, is that
“judgments are void if the court that rendered it
lacked jurisdiction of the subject matter, or of the
parties or if it acted in a matter inconsistent with
Due Process.”, “Evans v Cote”, 2009 VT 326, citing “Wright,

4
Miller and Kane, Federal Practice and Procedure”, sec 2862
at 326-29 (2nd Ed. 1995)
This Complaint is concerned with four orders;
1) Order Number 1, dated August 3, 2007, (EX 1) in
which all legal interest in a subject
property was
given to Grundstein, subject to an equitable interest in
proceeds to former joint tenants (127 Peninsula Road,
Eden Mills, VT);
2) Order Number 2, dated January 24, 2012, which,
without jurisdiction or due process, illegally removed
the interest created in Order 1 and Grundstein’s right to
enter and remain on his property (Count I);
3) Order Number 3, dated January 8, 2013 which,
without jurisdiction or due process, awarded a penalty
of $10,000.00 as attorney fees (Ten Thousand Dollars) to
plaintiffs without Notice, Due Process, compliance with
Civ. Rule 11 or authority (Count II);
4) Order Number 4, dated June 15, 2016, by which
damages of $84,000.00 were awarded without notice of
charges, presentment of evidence and opportunity to
address charges;
Count 1
Temporary Restraining Order/Preliminary Injunction/
Declaratory Relief/
Illegal Taking of Fee Interest in Real Property
without Jurisdiction
Violation of 5th and 14th Amendment Rights to Property
Violation of Due Process Notice and Hearing
1. On August 3, 2007, (EX 1) all legal interest in a subject
property (Lake Eden, Vermont) was given to Grundstein,
subject to an equitable interest in proceeds to former joint
tenants;
2. On January 24, 2012, a state judge, acting under color of
law, illegally removed this interest and right to enter and
remain on his property;
3. The judge had lost jurisdiction over this case as stated in
his August 3, 2007 order;

5
4. There was no notice or hearing by which Grundstein was
notified that his property rights were in jeopardy or that he
could have been divested of his property rights;
5. There was no statute, rule, mechanism, or procedure
by which Grundstein could have been divested of his real
property rights. He was not subject to foreclosure.
6. Grundstein was divested of his right to own enter and
possess his property without reference to law, notice, hearing
or any other process recognized at law or equity. It is an
illegal taking;
7. This has become an unpermitted practice, usage and
custom by J. Pearson at the state level.
THEREFORE, Grundstein asks this court for immediate
relief by way of Temporary Restraining Order/Preliminary
Injunction and for Declaratory relief in acknowledgement of
his right to enter, maintain and enjoy his property and direct
the Clerk of Courts to strike the January 24th 2012 order
which contradicts this right.
Count II
Declaratory Relief/Injunction
State Cannot Charge Attorney Fees without
Due Process Notice and Hearing
State Cannot Makes Determinations in a Case
Over Which it has Lost Jurisdiction
Unconstitutional Practice Custom and Usage
8. Grundstein re-states the prior contents of this
Complaint;
9. On January 8, 2013, Sua Sponte, without notice or hearing,
under color of law, state court judge Pearson levied a penalty
of $10,000.00 as attorney fees (Ten Thousand Dollars) against
Plaintiff. There was no calculation of how the judge arrived
at this figure. It was arbitrary and impossible to anticipate;
10. The judge had lost jurisdiction over this case as stated in
his August 3, 2007 order;
11. There was no notice or hearing by which Grundstein
was told that he could be subject to this penalty. See
“Lawson’s v Brown’s Day Care Center”, 2004 VT 6, (Eaton, J.);

6

12. There was no Statute, Rule or Procedure by which
Grundstein could have been fined under the conditions at
that time.
13. There was no Civ. Rule 11 motion filed against him
which is a necessary pre-condition under Vermont law
for attorney fees. Civ. Rule 11 is the mechanism for attorney
fees for actions at law in Vermont. See “Bennington Realty v.
Jard Co”, 169 Vt. 538, citing “Cameron v. Burke”, 153 Vt. 565,
confirmed by “Agency of Nat. Resources, v. Lyndonville Bank”
174 Vt. 498;
14. He was not in contempt. He had not violated an
injunction or other restriction;
15. There was no hearing at which an independent,
third party witness attorney testified with respect to the
reasonableness of attorney fees as required in Vermont case
“Schreck v Black River Brewing”, 643-10-07, Wrcv (J. Eaton)
16. Grundstein was penalized without reference to fact, law,
notice, hearing or any other process recognized at law or
equity;
17. This is an unpermitted practice, usage and custom of
sanctions at the state level. They may not be practiced in this
manner
THEREFORE, Grundstein asks this court to enjoin this
money charge against Grundstein, declare it void and direct
the Clerk of Courts to strike the January 8th 2013 order which
publishes this charge.
Count III
Declaratory Relief/Injunction re: Pearson Order of June 15,
2016/Docket Number Lecv 87-4-10
Eighty Four Thousand Dollar Judgment and Award
of Attorney Fees without Notice of Charges, without
Any Evidence or Compliance with Civ. Rule 11
Is Unconstitutional
Violates 5th and 14th Amendment Due Process, 6th Amend­
ment Right to Confront Evidence and 1st Amendment Right
of Meaningful Access to Courts

7
18. Plaintiff restates the prior contents of this complaint;
19. In May of 2010, Grundstein filed Case number 87-4-10
Lecv against Defendant M. Levin in Lamoille County Ver­
mont, Superior court;
20. Grundstein’s complaint sought damages for Conversion of
personal property;
21. Defendant Counterclaimed for equitable relief. Two of
her three claims were struck from the claim; (filing injunc­
tion, struck from claim and not litigated), action to import a
judgment (struck from the claim and not litigated). A third
paragraph was in the Counterclaim (lines 32-35) for money
damages which failed to state a claim, recite specific events
and dates or amounts;
22. A stipulated agreement to conduct mandatory state Al­
ternative Dispute Resolution was signed by Grundstein and
counsel for Defendant Levin. ADR is mandatory under VT
Court Rule 16.3 , the Vermont State Arbitration Act; Title 12,
Chapter 192 and the Vermont Uniform Mediation Act; Title
12, Chapter 194;
23. Judge Pearson signed the agreement as a stipulated or­
der;
24. Grundstein provided a list of suitable mediators;
25. Counsel for Levin refused to participate in mediation,
despite the contract obligation and court order to do so;
26. No discovery had taken place prior to the appointed inter­
val for mediation;
27. Grundstein moved the court to enforce its order for media­
tion and for contempt against counsel for Levin;
28. J. Pearson refused to enforce his order and mediation did
not take place;
29. Grundstein moved to recuse J. Pearson. J. Pearson refused
to remove himself;
30. Grundstein moved to change venue. This motion was also
refused by J. Pearson;
31. J. Pearson rotated out and J. Tomasi took his place in fall
of 2011;

8

32. Grundstein moved for hearing. Nothing took place;
33. J. Tomasi rotated out and J. Rainville took his place;
34. Grundstein moved for hearing again in early 2013. Noth­
ing was scheduled;
35. After several years, J. Pearson rotated back in;
36. Grundstein moved to have J. Pearson recused. The motion
was denied;
37. Trial on the merits was held on July 6, 2015. It lasted ap­
proximately one hour and a half;
38. Defendant Levin did not articulate a cause of action
as a basis for a counterclaim;
39. Defendant Levin did not testify;
40. Defendant Levin did not articulate a Counterclaim
damage amount in dollars or any other value;
41. Defendant Levin did not call any witnesses or pro­
vide any extrinsic or documentary evidence to prove a
cause of action or damages;
42. Defendant Levin did not provide any evidence of any sort;
43. There were no Civ. Rule 15 motions by which Defen­
dant Levin could have amended her Answer or establish a
counterclaim;
44. No notice or offer of proof was made by any party
or judge by which judicial notice of facts could have
been used as a basis to amend Defendant Levin’s Counter­
claim (See Rule of Evidence 201(e) and “In re A.M.” 2015
VT 109 (J. Eaton);
45. Defendant never articulated sufficient facts or
dates to give notice of any cause of action alleged to
have occurred at a specific time;
46. Grundstein proved his damages with affidavits and re­
ceipts;
47. There were no Civ. Rule 11 motions or hearings for
illegal filings, sanctions or practice;
48. There was no reason to violate The American Rule for
attorney fees;

9
49. Civ. Rule 11 is the mechanism to charge attorney fees for
actions at law in Vermont. See “Bennington Realty v. Jard
Co”, 169 Vt. 538, citing “Cameron v. Burke”, 153 Vt. 565, con­
firmed by “Agency of Nat. Resources v. Lyndonville Bank” 174
Vt. 498.
50. There was no basis in law or fact for attorney fees;
51. There was no procedural compliance to assign attorney
fees against any party. See “Schreck v Black River Brewing”
Wrcv 643-10-07 (Eaton, J.) 8-10- 2010, “Lawson v. Brown’s
Home Day Care Center, Inc.”, No. 195-9-97 ;
52. There was no hearing with independent third party
testimony in support of specific dollar amounts for attorney
charges as required by Vermont State law. (See “Schreck”, et
seq, op cit);
53. There was no proof of malice or outrageous conduct.
These not proven at hearing nor was there a required
hearing to ascertain the financial effect of an award of
punitive damages against the party least able to pay
them. See “Coty v. Ramsey Associates, Inc.”, 149 Vt. 451;
54. On June 15, 2016, J. Pearson awarded Defendant
$84,000.00 (eighty four thousand dollars) and attorney fees;
56. The order is angry and unbalanced against Grundstein.
It proves personal animus against Grundstein sufficient to
establish bias
57. J. Pearson claimed Grundstein committed Malicious Pros­
ecution;
58. Grundstein was never accused of malicious prosecution
in Levin’s pleadings nor were the prima facie elements con­
tained in Defendant Levin’s counterclaim or anywhere else in
the record. Grundstein had never initiated a criminal or civil
action against Levin prior to this suit;
59. It was impossible to anticipate this order because
J. Pearson created it independent of the record, facts,
testimony and the pleadings. It was created from his
own mind without reference to the case history and
transcripts;

10
THEREFORE, Grundstein asks that the order of June 15,
2016 be vacated and declared unenforceable. He also asks for
an instruction that the Lamoille Superior Clerk of Courts be
directed to strike this order from the docket or to act in con­
formity with this opinion.
Count IV
Declaratory Relief/Injunction
Vermont Civ. Rule 8 is Unconstitutional
A Complaint or Counterclaim Must Articulate Money
Damages in a Specific Amount
60. Grundstein restates the prior contents of his complaint;
61. Vermont Civ. Rule 8 does not require a party to articulate
a specific dollar amount for damages in a Complaint or Coun­
terclaim;
62. State and Federal Due Process requires a party to have
notice of the potential costs to litigate or not litigate a case:
“Like the Court, I believe there is a need, grounded in
the rule of law itself, to assure that punitive damages are
awarded according to meaningful standards that will pro­
vide notice of how harshly certain acts will be punished....”
citing “Philip Morris USA v. Williams”, 127 S. Ct. 1057,
1062 (2007). “Unless a State insists upon proper stan­
dards that will cabin the jury’s discretionary authority, its
punitive damages system may deprive a defendant of‘fair
notice... of the severity of the penalty that a State may
impose....”; citing “BMW v Gore”, 517 U.S. at 574).
63. See also (“Greenup v. Rodman”, (1986) 42 Cal.3d 822, 826):
Ordinarily, “[i]f the recovery of money or
damages is demanded [in a complaint], the amount
demanded shall be stated [in the complaint].”
(Code Civ. Proc., § 425.10.)
....“[D]ue process requires notice to defendants,
whether they default by inaction or by wilful obstruction,
of the potential consequences of a refusal to pursue their
defense. Such notice enables a defendant to exercise his
right to choose — at any point before trial, even after

11
discovery has begun — between (1) giving up his right
to defend in exchange for the certainty that he cannot be
held liable for more than a known amount, and (2) exer­
cising his right to defend at the cost of exposing himself to
greater liability.” (“Greenup”, supra, 42 Cal.3d at p. 829.)
THEREFORE, Grundstein asks this court to declare that
Vermont Civ. Rule 8 should be amended to require that dam­
ages be articulated in a Complaint or Counterclaim as dollar
amounts. He also asks for instructions to the state court that
Civ. Rule 8 be applied in its new form to Lamoille Superior
defendant Levin’s Answer/Counterclaim on re-hearing in the
state court or to strike her Answer/Counterclaim in its entire­
ty and that all damages amounts against Grundstein in Lecv
87-4-10 be enjoined.
Count V
Declaratory Relief/Inj unction
Violation of Vermont and Federal Law
against Excessive Fines
Award without Evidence, Due Process or
Contemplation of Economic Effect on Party Violates
5th, 6th, 8th and 14th Amendments, Vermont Constitution
Article 39 against Excessive Fines and Vermont Case Law
64. Grundstein restates the prior contents of his Complaint;
65. A judgment of this magnitude (Eighty Four Thousand
Dollars) will ruin Grundstein financially;
66. Under the circumstances of this case, ANY award of mon­
ey damages is excessive;
67. It was impossible to anticipate any damages for Levin’s
Counterclaim;
68. There was no evidence for them;
69. Dollar amounts as damages were not articulated in a
pleading;
70. There was no cause of action to support an award of dam­
ages;
71. There was no evidence of damages;

12
72. They were not litigated or discussed at hearing or any­
where else in motions and pleadings;
73. The award is excessive and seems to be a judicial Bill of
Attainder or punitive damages, executed without Due Pro­
cess, findings of malice, bad faith or evidence;
74. There was no state hearing as required in Vermont law
to ascertain the financial effect of punitive damages on the
person against whom they were levied (Grundstein);
“In the course of assessing punitive damages, the
financial status of the least wealthy defendant must be
taken into account.”, “Woodhouse v. Woodhouse”, 99 Vt. 91,
155,130 A. 758(1925).
THEREFORE, Grundstein asks that the award of
$84,000.00 in Lamoille Superior court is enjoined and
declared unenforceable with instructions to the clerk to
strike the order.
Count VI
Declaratory Relief Claim under State Law Procedure
Levin Claims Should Have Been Dismissed
after Levin Refused to Do Court Ordered ADR
Opposing Counsel Contributed to Delay by Refusing
to Participate in Court Ordered ADR
Levin Counterclaim Should Have been Dismissed
under State Law
Lower Court Exercised Prejudicial and Unexplained
Five Year Delay
75. Grundstein restates the prior contents of his Complaint:
76. Vermont Administrative Order 10, Judicial Canon 3, Sec­
tion (8), says:
“(8) A judge shall dispose of all judicial matters
promptly, efficiently and fairly.”
77. Grundstein filed his case in spring of 2010. J. Pearson re­
fused to enforce his own ADR order. J. Pearson allowed Levin
to remain in contempt of his ADR order.
78. Grundstein asked for a hearing several times between
2011 and 2013. It was not set until July of 2015. J. Pearson’s
order came out a year later.

13
79. With respect to Vt. Civ. Rule 41(b), a court may dismiss
a claim for prejudicial delay. VT found an interval of three
months sufficient to dismiss a claim. See “Altman v Altman”,
96 VT 485;
...’’Later that month, defendants’ attorney sent plain­
tiff a letter at the stated address containing a proposed
discovery schedule. When he did not receive a response,
counsel sent plaintiff another letter in August concerning
the proposed schedule. Failing again to receive a response,
defendants’ counsel requested the court to schedule a
discovery conference. The court sent plaintiff a notice on
October 6 directing him to appear at a status conference
on October 18. Plaintiff failed to appear at the sched­
uled conference. Defendants’ attorney thereupon moved
to dismiss plaintiff’s action for failure to prosecute under
V.R.C.P. 41(b)(2). The court granted the motion and, on Oc­
tober 31, issued an order dismissing plaintiff’s action with
prejudice...”
80. Levin’s claims against Grundstein should have been dis­
missed after Levin refused to participate in Court Ordered
ADR.
THEREFORE, Grundstein asks this court for Declaratory Re­
lief stating that the state court should have dismissed Superi­
or Court Defendant Levin Answer and any Counterclaims.
Count VII
Judge Bias Spoils Due Process
Need Peremptory Right of Recusal
Grundstein restates the prior contents of his Complaint;
81. The personal animus against Grundstein is patent in
state Judge Pearson’s procedural and substantive violations
against him;
82. This animus is also patent in the tone of his June 15, 2016
order;
83. “When a judge becomes personally embroiled in the con­
troversy with an accused he must defer trial
to another
judge” (case involved contempt hearing), “Mayberry v. Penn­
sylvania” 400 U.S. 455 (1971).
84. “Even in the absence of a personal attack on a judge that

14
would tend to impair his detachment, the judge may still
be required to excuse himself and turn a citation for
contempt over to another judge if the response to the
alleged misconduct in his courtroom partakes of the character
of "marked personal feelings” being abraded on both sides, so
that it is likely the judge has felt a "sting” sufficient to impair
his objectivity.” “Taylor v. Hayes”, 418 U.S. 488 (1974
THEREFORE, Grundstein asks for Declaratory and Injunc­
tive Relief against all Lamoille Superior Court orders de­
scribed in this Complaint (and in particular the June 15, 2016
order) by which Grundstein is ordered to pay damages and is
restricted from his own property on Lake Eden.
Count VIII
Vermont Expedited Appellate Docket is Statistically
Biased against Appellants
Violates 14th Amendment Equal Protection
Appellant Success 15% in “Rocket Docket” vs. 33% with
Full Banc of Judges
Three Banc Decisions Have no Precedential Value/Body
of Secret Law is Plainly Wrong
Grundstein restates the prior contents of his Complaint;
84. Grundstein appeal number 2016-242 was before three
judges of the Vermont Supreme Court;
85. An appellant is over 100 per cent more likely to win an
appeal before the full five judge banc of the Vermont Supreme
Court compared to the abbreviated three judge banc;
86. See Table 3, pg 286, Journal of Appellate Practice and Pro­
cess; “To Expediency and Beyond: Vermont’s Rocket Docket”,
Tracy Bach. (2002);
87. The appellant success rate is 15% on the expedited docket
but 33% with a full banc of judges;
88. This practice violates Equal Protection. All appellants
should have an equal opportunity to conduct a successful
appeal;
THEREFORE, Grundstein asks this court to declare existing
Vermont appellate Expedited Docket procedure to be uncon-

15
stitutional, for an injunction against orders generated pur­
suant to defective procedure and for an opinion directing the
state appellate court to act in conformity with this opinion.
S/s Robert Grundstein
Robert Grundstein Esq.
18 Griggs Road
Morrisville, VT 05661
rgrunds@pshift.com/802-888-3334
Verification
I declare under penalty of perjury that the foregoing is
true and correct to the best of my knowledge, information,
and belief.
S/s Robert Grundstein
Robert Grundstein Esq.
Certificate of Notice
I certify that on September 17, 2017, notice of application
for TRO under Count I, and a copy of this Complaint in its
entirety, a Request to Waiver Service and Waiver of Service
with SASE was sent to the Vermont Attorney General at the
following address by email and USPS;
T.J. Donovan
Vermont Attorney General’s Office
109 State Street
Montpelier, VT 05652
S/s Robert Grundstein Esq.
Robert Grundstein Esq.

16
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF VERMONT
Case No. 5:1 7-cv-151
ROBERT GRUNDSTEIN,
)
Plaintiff,

)
)
)

V.

)

LAMOILLE SUPERIOR
DOCKET ENTRIES/ORDERS;
LAMOILLE SUPERIOR DOCKET
ENTRY/ORDER; LAMOILLE SUPERIOR
CLERK OF COURT; LAMOILLE
SUPERIOR COURT; T.J. DONOVAN;
RANDALL MULLIGAN,

)
)
)
)
)
)
)
)
)
)

Defendants.
ORDER ON MOTIONS TO DISMISS, MOTION FOR
SANCTIONS AND MOTION TO STRIKE OFFER OF
SETTLEMENT AGREEMENT (Docs. 11, 13, 24, 26)
Plaintiff Robert Grundstein, proceeding pro se, initially
brought this action against Lamoille Superior Court Docket
Entries and Orders, the Lamoille Superior Court and its
Clerk of Court, and Vermont Attorney General T.J. Donovan.
(Doc. 1.) The action concerns a property in Lake Eden,
Vermont that has been the subject of considerable litigation.
( See id. at 3-4.) On October 10, 2017, Mr. Grundstein filed
a First Amended Complaint adding a claim and naming
Randall Mulligan as a defendant. (Doc. 3.) On April 4, 2018,
the Vermont Attorney General, Thomas J. Donovan, Jr.,
moved to dismiss the action in its entirety under Federal
Rule of Civil Procedure 12(b)(1) for lack of subject-matter
jurisdiction. (Doc. 11.) On April 12, 2018, Defendant Randall
Mulligan moved to dismiss the action under Federal Rule
of Civil Procedure 12(b)( 1), (4), (5), and (6). (Doc. 13.) Mr.
Grundstein opposes the motions. (Docs. 14-15, 17, 21-22.)

17
Following these responses, on May 9, 2018, Mr. Mulligan
filed a motion for sanctions under Federal Rule of Civil
Procedure 11. (Docs. 24, 28.) Mr. Grundstein did not respond
to the motion for sanctions. Instead, he filed an Offer of
Settlement Agreement (Doc. 25) which
Mr. Mulligan then moved to strike on June 20, 2018 (Doc.
26). Mr. Grundstein filed a response to the motion to strike
on July 9. (Doc. 27.) For the reasons discussed below, the
motions to dismiss are granted and the motion to strike is
denied as moot.
Background1
Mr. Grundstein and his siblings inherited a camp on
Lake Eden in Vermont. In August 2005, Mr. Grundstein’s
siblings brought a partition action in Lamoille Superior
Court. On August 3, 2007, following a hearing, the trial
court assigned the property to Mr. Grundstein subject to
conditions. Mr. Grundstein attached the state court’s August
3, 2007 Final Judgment to his original complaint in this
federal case. It stated in part:
All right, title and interest in and to the subject real
property is hereby assigned and conveyed solely to
Defendant Robert H. Grundstein ... all subject to the
terms and provisions of the Order of the court stated
in separate Findings of Fact, Conclusions of Law, and
Order of even date herewith.
(Doc. 1-1 (citing 12 V.S.A. § 5174) (emphasis added).) The
salient condition was that he pay his three siblings $25,000
each for their shares by June 1, 2008. Ifhe failed to make
the payments, the property would be put up for sale and the
proceeds divided among all four owners.
Mr. Grundstein did not make the payments. His siblings
1 This factual summary is largely derived from the Vermont Su­
preme Court’s opinions in Levin v. Grundstein, No. 2011-201, 2013
WL 2631310 (Vt. Apr. 18, 2013) (mem.), and Grundstein v. Levin, No.
2016-242, 2017 WL 571272 (Vt. Feb. 1, 2017) (mem.). Those Vermont
Supreme Court opinions-like all of the Vermont Supreme Court
opinions in Mr. Grundstein’s appeals discussed below-were decided
by a three-justice panel of the Court under the provisions of V.R.A.P.
33.1 (Summary Procedures on Appeal).

18
found a buyer in the summer of 2008 and planned to close
the following October. After Mr. Grundstein refused to
vacate the property, his siblings obtained an injunction on
September 29, 2008, requiring him to vacate the property
and to remove his personal possessions. He appealed the
order and the Vermont Supreme Court affirmed, holding
that the partition order was proper and that Mr. Grundstein
“did not obtain a fee simple interest in the property ...
without first having paid the money required to obtain such
an interest.” Levin v. Grundstein, No. 2008-417, 2009 WL
2427820, at *1 (Vt. Mar. 5, 2009) (mem.).
Mr. Grundstein’s continued interference doomed the sale.
His siblings sought an order of contempt for violation of the
August 2007 judgment order. On June 22, 2009, following
a hearing, the trial court granted the contempt motion but
allowed Mr. Grundstein to comply with the prior order by
June 26, which he again failed to do. On July 6, 2009, the
trial court issued a final order of contempt. Mr. Grundstein
appealed the order and the Vermont Supreme Court
affirmed, holding that his “vague constitutional arguments
claiming a deprivation of property without due process have
no merit.” Levin v. Grundstein, No. 2009-254, 2010 WL
1266673, at *1 (Vt. Apr. 1, 2010) (mem.).
In June 2009, Mr. Grundstein’s siblings moved for an award
of attorney’s fees. In February 2011, the trial court held a
hearing on several pending motions, including the motion
for attorney’s fees and a motion to amend the partition
judgment. On April 22, 2011, the trial court granted the
motion to amend, assigning Mr. Grundstein’s siblings title to
the property, granting Mr. Grundstein a one-quarter interest
in the proceeds of any sale, and granting the siblings’ motion
for attorney’s fees. See Levin v. Grundstein, No. 2011-201,
2013 WL 2631310, at *2 (Vt. Apr. 18, 2013) (mem.). The trial
court, however, sought more detailed billing information
from the siblings’ attorney on the issue of the amount of the
fees. Mr. Grundstein appealed the order. The appeal was
stayed and the matter remanded to the trial court to rule on
post-judgment motions. See id.

19
On January 24, 2012, the trial court denied Mr. Grundstein’s
motion to reconsider the April 22, 2011 order, denied his
motion for access to the property, and granted his request
for additional time to file objections to the attorney’s billing
statements. On January 8, 2013, following an evidentiary
hearing, the trial court entered an order awarding attorney’s
fees of $10,622.11. The court ruled that Mr. Grundstein’s
intentional and repeated efforts to delay and frustrate his
siblings’ established right to sell the property, in violation
of a court order, entitled them to attorney’s fees under
the limited exception to the “American Rule” for wrongful
conduct. Mr. Grundstein appealed the order and the
Vermont Supreme Court affirmed, finding no merit in his
claims that the fee award was untimely, was unauthorized
by any statutory or contractual provision, failed to comply
with Rule 11, was legally and factually unsupported, and
was based on fraudulent billing records. Levin, 2013 WL
2631310, at *3.
Mr. Grundstein then initiated an action in Lamoille Superior
Court against his sister for conversion of the personal
property he left at the camp. She counterclaimed for abuse
of process and malicious prosecution, seeking to recover for
the financial loss incurred from the failure of the planned
sale of the camp and other damages. This new action was
consolidated with the ongoing partition proceeding. In July
2015, the trial court held an evidentiary hearing on the
claims.
The trial court issued a written ruling on July 15, 2016. The
court noted that Mr. Grundstein had waived his conversion
claim at the hearing and had only contested whether he
owed any fees for storage of his personal property removed
by his siblings. With regard to the counterclaims, the court
rejected the abuse-of-process claim but upheld the malicious
prosecution claim. The court awarded damages of $84,218 for
the lost sale of the camp, subsequent property repairs and
maintenance, property taxes paid, and moving and storage
fees for Mr. Grundstein’s personal property, as well as the
previously awarded attorney’s fees.
Mr. Grundstein appealed the order.

20

The Vermont Supreme Court rejected Mr. Grundstein’s claim
that he was not “afforded ‘fair notice of the likely severity’
of the damage award, in violation [of] V.R.C.P. 8 and his
constitutional due process rights.” Id. at *2. The Court ruled
that the elements of his counterclaim were not proven and
that there was no basis for recusal of the trial judge. The
Court denied Mr. Grundstein’s claims that the award of
attorneys fees against him was a court “sanction” imposed
without due process and that the trial court erred in denying
a motion to compel mediation. Id. at *2-3. Accordingly, the
Vermont Supreme Court affirmed the trial court decision
in all respects except that it reduced the damage award to
$69,272 because the attorney’s fees could not be included
as the final judgment in the partition action had already
awarded the same relief. Grundstein v. Levin, No. 2016-242,
2017 WL 571272, at *3 (Vt. Feb. 1, 2017) (mem.).
In May 2011, Mr. Grundstein filed his first action in federal
court regarding the Lake Eden property. See Grundstein v.
Vermont, No. 1:1 l-cv-134, 2011 WL 6291955 (D. Vt. Dec. 15,
2011). He sued the State of Vermont and various members of
the Vermont judiciary, claiming rulings issued in the statecourt proceedings were erroneous and unconstitutional. Id.
at* 1. The court granted defendants’ motions to dismiss,
holding that it lacked subject-matter jurisdiction under the
doctrines of Rooker-Feldman and Younger abstention. Id.
at *2-5.
Mr. Grundstein commenced this case on August 7, 2017,
and filed a First Amended Complaint (“FAC”) on October
10, 2017. Mr. Grundstein alleges the court has federalquestion jurisdiction under 28 U.S.C. § 1331 because his
federal constitutional rights have been violated. (Doc. 3
at 3.) He also seeks “relief under the Federal Declaratory
Relief statute,” 28 U.S.C. § 2201. (Id.) He notes the FAC is
concerned with four state trial court orders: (1) the August 3,
2007 order, “in which all legal interest in a subject property
was given to Grundstein, subject to an equitable interest in
proceeds to former joint tenants”; (2) the January 24, 2012
order, “which, without jurisdiction or due process, illegally
removed the interest created in [the August 3] Order ... and

21
Grundstein’s right to enter and remain on his property”;
(3) the January 8, 2013 order, “which, without jurisdiction
or due process, awarded a penalty of $10,000 as attorney
fees to plaintiffs without Notice, Due Process, compliance
with [V.R.C.P.] Rule 11 or authority”; and (4) the June 15,
2016 order, “by which damages of $84,000.00 were awarded
without notice of charges, presentment of evidence and
opportunity to address charges.” (Id. at 3-4.)
The FAC added a claim to “set aside deed,” quiet title,
and for declaratory relief.2 (Doc. 3 at 14.) Mr. Grundstein
alleges that although the property could not be sold without
his “permission and signatures,” the Lake Eden property
was transferred to Defendant Randall Mulligan on June
5, 2017. (Id. at 15.) He states the court has subject-matter
jurisdiction over the claim for declaratory relief based on
supplemental jurisdiction. (Id.)
Mr. Grundstein seeks various injunctive and declaratory
relief including requesting the court order the state
court clerks to strike state court orders from the dockets.
He also seeks an order from this court declaring the
Vermont Supreme Court’s Expedited Docket procedure
unconstitutional. See V.R.A.P. 33.1 (Summary Procedures on
Appeal).
Analysis
I.
Motions to Dismiss
a.
Rule 12(b)(1) Standard
A case is properly dismissed under Federal Rule of Civil
Procedure 12(b)(1) “for lack of subject matter jurisdiction
if the court ‘lacks the statutory or constitutional power
to adjudicate it “’ Cortlandt St. Recovery Corp. v. He /
las Telecomms., S.A.R.L., 790 F.3d 411,417 (2d Cir. 2015)
(quoting Makarova v. United States, 201 F.3d 110, 113 (2d
Cir. 2000)). Determining subject-matter jurisdiction is a
2 On August 7, 2018, the court granted Mr. Grundstein’s August
3 motion to amend his complaint and responses to the defendants’
motions to dismiss. (See Docs. 30, 31.) The only change to the FAC,
which the court continues to consider the operative complaint, is to
the title of Count DC. (See Doc. 30 at 1.)

22

“threshold inquiry,” and should be addressed prior to any
consideration of a complaint’s substantive merits. Arar v.
Ashcroft, 532 F.3d 157, 168 (2d Cir. 2008). On a Rule 12(b)
(1) motion, the court accepts as true "’all material allegations
of the complaint [] and ... construe [s] the complaint in favor
the complaining party.’” Cortlandt St., 790 F.3d at 417
(first brackets in original) (quoting WR. HuffAsset Mgmt.
Co. v. Deloitte & Touche LLP, 549 F.3d 100, 106 (2d Cir.
2008)). “In deciding a Rule 12(b)(1) motion, the court may
also rely on evidence outside the complaint.” Id The plaintiff
bears the burden of proof of establishing jurisdiction by a
preponderance of the evidence. Makarova, 201 F.3d at 113
(2d Cir. 2000); see also Blockbuster, Inc. v. Galeno, 472 F.3d
53, 57 (2d Cir. 2006).
b.
Rooker-Feldman Doctrine
The Rooker-Feldman doctrine “established the clear
principle that federal district courts lack jurisdiction over
suits that are, in substance, appeals from state-court
judgments [.]”
Hoblock v. Albany Cty. Bd. of Elections, 422 F.3d 77, 84 (2d
Cir. 2005). The doctrine “pertains not to the validity of the
suit but to the federal court’s subject matter jurisdiction
to hear it.” Vossbrinckv. Accredited Home Lenders, Inc.,
773 F.3d 423,427 (2d Cir. 2014). Federal courts may not
entertain “cases brought by state-court losers complaining of
injuries caused by state court judgments rendered before the
district court proceedings commenced and inviting district
court review and rejection of those judgments.” Exxon Mobil
Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005).
When it is asserted that a prior state court order precludes
federal jurisdiction under the Rooker-Feldman doctrine,
“the Court takes judicial notice of the state court record.”
Gadreault v. Grearson, No. 2:ll-cv-63, 2011 WL 4915746, at
*1 n.l (D. Vt. Oct. 14, 2011).
The Second Circuit has identified four requirements for the
application of the Rooker- Feldman doctrine:
First, the federal-court plaintiff must have lost in state
court. Second, the plaintiff must “complain [] of injuries

23

caused by [a] state-court judgment!.]” Third, the plaintiff
must “invit[e] district court review and rejection of [that]
judgmentO.” Fourth, the state-court judgment must
have been “rendered before the district court proceedings
commenced”-i.e., Rooker-Feldman has no application to
federal-court suits proceeding in parallel with ongoing
state court litigation.
Hoblock, 422 F.3d at 85 (citing Exxon Mobil, 544 U.S. at 284).
The first and last requirements are procedural. Here,
the first is satisfied because Mr. Grundstein “has lost
repeatedly in state court.” See Grundstein v. Vermont, No.
l:ll-cv- 134, 2011 WL 6291955, at *3 (D. Vt. Dec. 15, 2011).
He has appealed multiple times and lost each appeal. The
FAC makes it clear that he wishes this court to review four
state-court orders in which he was the losing party. The last
Rooker-Feldman requirement is satisfied because each of
the orders referenced in the FAC was issued as of August
2017, when Grundstein commenced this case in this federal
district court.
The second and third requirements are substantive.
“[A] federal suit complains of injury from a state-court
judgment, even if it appears to complain only of a third
party’s actions, when the third party’s actions are produced
by a state-court judgment.” Hoblock, 422 F.3d at 88. Mr.
Grundstein complains of injuries he has suffered from the
state-court orders relating to the Lake Eden property and
he seeks damages aimed at compensating him for its loss.
He also alleges the rulings have violated his constitutional
rights. Because granting the relief Mr. Grundstein seeks
would require the court, impermissibly, to review and
reject the four state court orders, the court finds his claims
satisfy the second and third requirements. See id. at 87
(noting that if a plaintiff alleges in federal court that a
state court order terminating his constitutional rights was
unconstitutional, “he is complaining of an injury caused by
the state judgment”).
Because all four requirements of the Rooker-Feldman doctrine
are satisfied, this court lacks subject-matter jurisdiction to
review the decisions rendered against Mr. Grundstein in

24
the state courts. “[0]nly the Supreme Court [of the United
States] may hear appeals from state-court judgments.”
Id. Accordingly, the court lacks jurisdiction over Counts I,
II, III, IV (to the extent it seeks to enjoin the state-court
damage award), V, VI, VII3 and VIII (to the extent it seeks to
enjoin the Supreme Court order) under the Rooker-Feldman
doctrine. The Attorney General’s motion to dismiss (Doc. 11)
must be GRANTED as to those counts because this court
lacks subject-matter jurisdiction.
c.

Res Judicata

Mr. Grundstein’s claims would also be barred by res
judicata because they are predicated on the same transactions
and occurrences that formed the basis of his previous statecourt actions. Res judicata, “a rule of fundamental repose,”
provides that:
when a court of competent jurisdiction has entered a final
judgment on the merits of a cause of action, the parties to
the suit and their privies are thereafter bound not only
as to every matter which was offered and received ... but
as to any other admissible matter which might have been
offered for that purpose.
In re Teltronics Servs., Inc., 762 F.2d 185,190 (2d Cir.
1985). Accordingly,”[e]ven claims based upon different legal
theories are barred [by res judicata] provided they arise from
3 Count VII, titled “Judge Bias Spoils Due Process[;] Need Peremptory
Right of Recusal,” purports to allege that Vermont Judge Pearson was
biased and seeks declaratory and injunctive relief against state-court
orders, in particular the June 15, 2016 Order. (See Doc. 3 at 13.) Mr.
Grundstein has litigated his allegations of bias against Judge Pearson,
and the Vermont Supreme Court has rejected them. In affirming the June
15 Order, the Supreme Court stated:
Plaintiff next contends that the trial judge “should have recused him­
self,” arguing that the amount of the award alone “was sufficient” to
prove bias, and that the trial judge had “a history of personal animus”
toward plaintiff as demonstrated by a variety of rulings against him.
These allegations are insufficient to demonstrate bias. Plaintiffs
related argument that he should have had the “peremptory” right
to remove a judge is unsupported, and contravenes the salutary and
well settled principle that courts enjoy a “presumption of honesty and
integrity and the burden is on “the moving party to show otherwise.”

25

the same transaction or occurrence.” L-Tec Elecs. Corp. v.
Cougar Elec. Org., Inc., 198 F.3d 85, 88 (2d Cir. 1999).
Here, as discussed above, Mr. Grundstein has extensively
litigated issues relating to the Lake Eden camp. The
remaining counts of his current Complaint either were or
could have been raised in those actions. Count VIII of the
FAC alleges the Vermont Supreme Court’s procedure for
three-justice appeals violates equal protection and seeks an
injunction against “orders generated pursuant to defective
procedure.” (See Doc. 3 at 13-14.) To the extent Grundstein,
2017 WL 571272, at *3 (internal citations omitted).
Mr. Grundstein seeks to challenge the outcome of his
Vermont Supreme Court appeal, his claim is barred by
Rooker-Feldman as discussed above. To the extent he seeks
generally to challenge the constitutionality of the Vermont
Supreme Court’s use of three-justice panels, this claim could
have been raised in that appeal and is accordingly barred
by res judicata. L-Tec Elecs. Corp., 198 F.3d at 88 (“[C]
laims based upon different legal theories are barred [by res
judicata] provided they arise from the same transaction or
occurrence”).4 The Attorney General’s motion to dismiss
(Doc. 11) is GRANTED as to the remainder of Count VIII
because it is barred by res judicata.
4 Although the Attorney General focuses on these procedural points, they
are hardly the only deficiencies in the claim. The Vermont Supreme Court
considered and rejected a similar challenge premised on provisions of Ver­
mont law. See State v. Mills, 167 Vt. 365,371, 706 A.2d 953, 956 (1998) (“[T]
here is no constitutional impediment to the summary procedure created by
V.R.A.P. 33.1.”). And Mr. Grundstein cites no plausible basis for his claim
that the Vermont Supreme Court’s use of three-justice panels violates the
federal Equal Protection Clause or other federal law. He cites no authority
aside from referring to statistics of appellants’ success rates on appeal be­
fore three-justice panels compared to the full five-justice Vermont Supreme
Court. See Tracy Bach, To Expediency and Beyond: Vermont’s Rocket
Docket, 4 J. App. Prac. & Process 277 (2002). But Professor Bach found
nothing unjust about the summary procedures. See id. at 288 (“[I]t strikes
a reasonable balance among efficacy, cost-effectiveness , and fairness.”).
Notably, cases before the federal intermediate appellate courts are routine­
ly decided by panels of three judges with no suggestion of constitutional
infirmity. See 28 U.S.C. § 46(b) (circuit courts may authorize hearing and
determination of cases and controversies byseparate three-judge panels).

26

d.
Defendant Mulligan’s Motion to Dismiss
Defendant Randall Mulligan purchased the Lake Eden
property from Mr. Grundstein’s siblings in June 2017. (Doc
3 at 15; Doc. 13-1 at 3.) Mr. Mulligan moves to dismiss the
claim against him arguing the court lacks subject-matter
jurisdiction, improper venue, insufficient process or service of
process, and failure to state a claim upon which relief can be
granted. (Doc. 13.)
Defendant Mulligan first argues that the court lacks subjectmatter jurisdiction because diversity is lacking between
himself and Mr. Grundstein, both Vermont residents.
Mr. Grundstein, however, has filed suit alleging the court
has federal question jurisdiction and invokes supplemental
jurisdiction over his state-law claim against Mr. Mulligan.
(Doc. 3 at 14-15.)
A “district court ‘cannot exercise supplemental jurisdiction
unless there is first a proper basis for original federal
jurisdiction.’” Cohen v. Postal Holdings, LLC, 873 F.3d
394, 399 (2d Cir. 2017) (quoting Nowak v. Ironworkers
Local 6 Pension Fund, 81 F.3d 1182, 1187 (2d Cir. 1996)).
Subject-matter jurisdiction over the state-law claim against
Defendant Mulligan is lacking because of the court’s
dismissal of the alleged federal-question claims. Because
the court dismissed all federal claims for lack of subjectmatter jurisdiction under Rule 12(b)(l), it is “precluded from
exercising supplemental jurisdiction over related state-law
claims.” Cohen, 873 F.3d at 399.
This is not a case like Catzin v. Thank You & Good Luck
Corp., No. 17-2497, 2018 WL 3747364 (2d Cir. Aug. 8,
2018). In that case, the district court had federal question
jurisdiction in an initial stage of the case, but sua sponte
decided not to exercise supplemental jurisdiction one week
before trial was to begin. The Second Circuit vacated and
remanded the case, concluding that the district court had
erred by failing to exercise supplemental jurisdiction under
the circumstances. Here, in contrast, all federal question
claims were dismissed on the authority of the Rooker-Feldman
doctrine. This court lacked federal-question jurisdiction from

27

the outset and therefore supplemental jurisdiction over statelaw claims was never present.
Further, even if the court had supplemental jurisdiction
over his claim, and Mr. Grundstein had timely served Mr.
Mulligan according to the court’s Order, (see Doc. 5), the
court would nonetheless dismiss the claim. Though Mr.
Grundstein styles his claim as against Mr. Mulligan, the
relief he seeks is to set aside the deed transferring ownership
of the Lake Eden camp to Mulligan because-he asserts - he
retains all legal interest in the property pursuant to the
August 3, 2007 state court order. As discussed above, Mr.
Grundstein’s interest in the property consists only of a onequarter interest in the proceeds of any sale.
On April 22, 2011, the state trial court granted his siblings’
motion to amend the partition award and assigned Mr.
Grundstein ‘ s siblings title to the property, leaving Mr.
Grundstein only an interest in the proceeds of any. sale.5
The court subsequently denied Mr. Grundstein’s motion to
reconsider. See Levin, 2013 WL 2631310, at *2. The Vermont
Supreme Court affirmed the trial court ‘ s order in April
2013, holding:
To the extent that Grundstein asserts the trial court
lacked authority to amend the partition judgment, he
cites no case, statute, or other authority to support the
claim, and we have held that the trial court enjoys broad
discretion to amend a judgment in the interests of justice
under the catchall provision of Rule 60(b)(6). Grundstein
makes no showing, moreover, of how the order vesting
title in [his siblings] prejudiced his interests in any
respect, inasmuch as it had no impact on the provision
requiring an ultimate sale of the property due to his
failure to make the required buyout payments.
Id. (internal citations omitted). Accordingly, this claim is
5 As of 2009, the Vermont Supreme Court had held the partition order
was proper and Mr. Grundstein “did not obtain a fee simple interest in
the property . . . without first having paid the money required to obtain
such an interest.” Levin v. Grundstein, No. 2008-417, 2009 WL 2427820,
at *1 (Mar. 5, 2009).

28

barred by the Rooker-Feldman doctrine because it clearly
invites review and rejection of a state-court judgment. Mr.
Grundstein lost in state court and now seeks an end-run
around the effect of the state-court judgment rendered before
this proceeding commenced. See Exxon Mobil Corp., 544
U.S. at 284. This court lacks subject-matter jurisdiction over
Count IX. Defendant Mulligan’s motion to dismiss (Doc. 13) is
therefore GRANTED.
II.
Motions for Sanctions and to Strike
On May 9, 2018, Mr. Mulligan filed a motion for sanctions
pursuant to Federal Rule of Civil Procedure 11. (Docs.
24, 28.) Mr. Grundstein did not respond to the motion for
sanctions, instead filing with the court, on June 18, an Offer
of Settlement Agreement (Doc. 25) which
Mr. Mulligan then moved to strike on June 20, 2018 (Doc.
26). Mr. Grundstein filed a response to the motion to strike
on July 9. (Doc. 27.)
The dismissal of Mr. Grundstein’s claim for lack of subjectmatter jurisdiction does not deprive the court of jurisdiction
over Mulligan’s motion for sanctions under Federal Rule
of Civil Procedure 11. See Willy v. Coastal Corp., 503 U.S.
131 (1992); Chemiakin v. Yefimov, 932 F.2d 124,129 (1st
Cir. 1991). But a decision on the sanctions issue will require
a further hearing. Counsel for Mr. Mulligan shall advise
the court within 10 days whether the motion for sanctions
is withdrawn in light of the court’s ruling or whether Mr.
Mulligan wishes to pursue the motion. If Mr. Mulligan
continues to seek sanctions, the court will schedule a
hearing.
The motion to strike is DENIED AS MOOT in light of the
court’s ruling.
Conclusion
The Vermont Attorney General’s Motion to Dismiss (Doc.
11) and Randall Mulligan’s Motion to Dismiss (Doc. 13) are
GRANTED. Plaintiffs First Amended Verified Complaint
(Doc. 3) is DISMISSED without prejudice.
The Second Circuit has cautioned that the court “should

29
not dismiss a pro se complaint ‘without granting leave to
amend at least once,’ unless amendment would be futile.”
Garcia v. Superintendent of Great Meadow Corr. Facility,
841 F.3d 581, 583 (2d Cir. 2016) (per curiam) (quoting
Cuoco v. Moritsugu, 222 F.3d 99, 112 (2d Cir. 2000)). Here,
amendment would be futile; better pleading could not cure
the substantive defect of this court’s lack of subject-matter
jurisdiction over Mr. Grundstein’s claims.
In light of the dismissal of the FAC for lack of subject-matter
jurisdiction, Mr. Mulligan’s Motion to Strike (Doc. 26) is
DENIED AS MOOT.
The court reserves ruling on Mr. Mulligan’s Motion for
Sanctions (Doc. 24). Counsel for Mulligan shall advise the
court within 10 days whether the motion for sanctions is
withdrawn in light of the court’s ruling or whether Mulligan
wishes to pursue the motion.
SO ORDERED.
Dated at Rutland, in the District of Vermont, this 7 day of
September, 2018.

Geoffrey W. Crawford, Chief Judge
United States District Court

30
A Cricken Hill Road, Hyde Park, VT 05655,
Defendants-Appellees
FOR
PLAINTIFF-APPELLANT:

ROBERT GRUNDSTEIN pro se,
Morrisville, VT.

FOR DEFENDANTS-APPELEES
T. J. DONOVAN, LAMOILLE
SUPERIOR COURT, AND
LAMOILLE SUPERIOR CLERK
OF COURT:

DAVID A. BOYD Assistant
Attorney General, for
T. J. Donovan, Jr. Attorney
General of Vermont,
Montpelier, VT.

FOR DEFENDANT-APPELLEE
RANDALL MULLIGAN

SHANNON A. BERTRAND
Facey Goss & McPhee P.C.,
Rutland, VT.

Appeal from a judgment of the United States District Court
for the District of Vermont (Crawford, C. J.).
UPON DUE CONSIDERATION IT IS HERESY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Appellant Robert Grundstein, proceeding pro se, appeals the
district court’s judgment dismissing his, amended complaint
for tack of subject-matter jurisdiction Grundstein has engaged
in extensive litigation in state and federal court in connection
with real property that he and his siblings inherited. In this
action, He sued Vermont’s attorney general, the Lamoille
Superior Court and its clerk of court, three state court orders,
and the present owner of the property under 42 U.S.C. § 1983
and state law. He asserts that the state court acted without
jurisdiction and in violation of his constitutional rights when
it ordered partition of the property by sale and awarded
attorney's fees and damages to his siblings. He also challenges
the constitutionality of certain state rules and procedures and
seeks to set aside the present owner’s deed. We assume the
parties familiarity with the underlying facts, the_procedural
history of the case, and the issues on appeal.
We review de novo the district court’s dismissal of the
amended complaint for lack of subject-matter jurisdiction

31
pursuant to the Rooker-Feldman doctrine. Hoblock v. Albany
Cnty. Bd. of Elections, 422 F.3d 77, 83 (2d Cir. 2005). Under the
Rooker-Feldman doctrine, lower federal courts lack jurisdiction
over “cases brought by state-court losers complaining of
injuries caused by state-court judgments rendered before the
district court proceedings commenced and inviting district
Court review and rejection of those Judgments.” Exxon Mobil
Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005).1
The doctrine applies-where the federal court plaintiff: (1) lost
in state court, (2) complains of injuries caused by a state-court
judgment, (3) invites the district court to review and reject the
state-court judgment, and (4) commenced the district court
proceedings after the state-court judgment was rendered.
Vossbrinck v. Accredited Home Lenders, Inc., 773 F.3d 423, 426
(2d Cir. 2014).
The district court properly concluded that the Rooker-Feldman
doctrine bars Grundstein’s claims to the extent that he
challenges the result of state court orders conferring title to
the disputed property to his siblings, ordering partition of
the property by sale, and awarding his siblings attorney’s
fees and other damages, as welt as other adverse orders
entered by an allegedly biased Vermont Superior Court judge
and decisions made against him by the Vermont Supreme
Court pursuant to its expedited appellate procedure. Each of
these orders was adverse to Grundstein, and each resulting
judgment was entered prior to the commencement of this case
in August 2017. See Grundstein v. Levin, No. 2016-242, 2017 W
L 571272, at * 1 (Vt. Feb. 1, 2017) (unpublished) (summarizing
state-court litigation). Grundstein also complains of injuries
caused by the state court judgments: the alleged injuries
include Grundstein’s loss of title to the disputed property,
the requirement that he pay attorney’s fees and damages
to his siblings, and the state court’s violation of Grundstein
constitutional rights. The amended complaint plainly invited
the district court to review and reject state court judgments by
requesting that the court (1) find that the orders were entered
without jurisdiction, in contravention of state law, or in
1 Unless otherwise indicated, in quoting cases, we omit all internal
citations, quotation marks, footnotes, and alterations.

32

violation of his constitutional rights, and (2) provide relief by
striking the orders, enjoining their enforcement, or unwinding
the subsequent transfer of the property. CfVossbrinck, 713
F.3d at 427 (finding it “evident from the relief [plaintiff]
requested]’’-which was title and tender of property and a
declaration that a state judgment was void—that the injury
complained of was a state foreclosure judgment).
Grundstein’s challenges to this finding are without merit.
Contrary to his argument, Rooker-Feldman can reach issues
that were not raised before or decided by the state court.
See Hoblock, 422 F.3d at 86 (“[P] resenting in federal court
a legal theory not raised in state court... cannot insulate
a federal plaintiffs suit from Rooker-Feldman if the federal
suit nonetheless complains of injury from a state-court
judgment and seeks to have that state-court judgment
reversed.”). Nor have courts recognized general exceptions to
the Rooker-Feldman doctrine for federal suits asserting that
the state court acted without jurisdiction or in violation of
the requirements o f due process. See, e.g., Doe v. Mann, 415
F.3d 1038,1042 n.6 (9th Cir. 2005) (“Rooker-Feldman applies
where the plaintiff in federal court claims that the state court
did not have jurisdiction to render a judgment.”); D.C. Ct. of
Appeals v. Feldman, 460 U.S. 462, 486 (J 983) (district courts
lack jurisdiction “over challenges to state court decisions
in particular cases arising out of judicial proceedings even
if those challenges allege that the state court’s action was
unconstitutional” because, in that event, review is appropriate
only in the Supreme Court). There is likewise no general
exception to the doctrine when it is alleged that the state
court judgment was procured by fraud. See Vossbrinck, 773
F.3d at 427 (claim that foreclosure judgment was obtained
by fraud was barred by Rooker-Feldman because it “would
require the federal court to review the state proceedings and
determine that the foreclosure judgment was issued in error”).
To the extent that Grundstein raises general challenges to
the constitutionality of state court rules and procedures that
are not barred by the Rooker-Feldman doctrine in Counts 4
and 8 of his amended complaint, we affirm the district court’s
dismissal of these claims because Grundstein failed to estab-

33

lish standing. See Leon v. Murphy, 988 F.2d 303, 308 (2d Cir.
1993) (noting that this Court may affirm a judgment on any
ground “for which there is a record sufficient to permit conclu­
sions of law”). In order to establish standing, Grundstein had
to plead that he suffered an injury that is “concrete and par­
ticularized” and “actual or imminent” that was “fairly trace­
able” to the challenged rules and procedures. Lujan v. Lefs. of
Wildlife, 504 U.S. 555, 560 (1992). Grundstein did not allege
that he is involved in any ongoing state litigation in Vermont
or otherwise plead any facts from which we can infer that he
will be injured by the prospective application of Vermont Rule
of Civil Procedure 8 or the Vermont Supreme Court’s expedit­
ed appellate procedure. The district court therefore properly
dismissed Grundstein’s amended complaint in remaining
part. See id.
We have considered all of Grundstein’s remaining arguments
and find them to be without merit. Accordingly, we AFFIRM
the judgement of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case 19-2998, Document 89-1, 09/11/2020, 2928655, Pagel of 6

19-2998
Grundstein v. Lamoille Superior Docket Entries/Orders

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 11th day of September, two thousand twenty.
PRESENT:
JOHN M. WALKER, JR.,
ROBERT A. KATZMANN,
RAYMOND J. LOHIER, JR.,
Circuit Judges.
Robert Grundstein,
Plaintiff-Appellant,
v.
Lamoille Superior Docket Entries/Orders, P.O. Box
570, 154 Main Street, Hyde Park, VT 05655, dated
1-24-2012 and 1-8-2013 in Lecv 148-8-05,
Lamoille Superior Docket Entry/Order, P.O. Box
570, 154 Main Street, Hyde Park, VT 05655, dated
6-15-16 (Appellate No. 2016-242) in Lecv 87-4-10,
Lamoille Superior Clerk of Court, P.O. Box 570,
154 Main Street, Hyde Park, VT 05655, as Docket
Administrator (Counts I through VII), Lamoille
Superior Court, P.O. Box 570, 154 Main Street,
Hyde Park, VT 05655, T.J. Donovan, 109 State
Street, Montpelier, VT 05609-1001, State of
Vermont / Attorney General, Randall Mulligan, 591

19-2998

Case 19-2998, Document 89-1, 09/11/2020, 2928655, Page2 of 6

A Cricken Hill Road, Hyde Park, VT 05655,
Defendants-Appellees.
FOR PLAINTIFF-APPELLANT:

Robert Grundstein pro se,
Morrisville, VT.

FOR DEFENDANTS-APPELLEES T.J. DONOVAN,
LAMOILLE SUPERIOR COURT, AND
LAMOILLE SUPERIOR CLERK OF COURT:

David A. Boyd Assistant
Attorney General, for T.J.
Donovan, Jr., Attorney
General of Vermont,
Montpelier, VT.

FOR DEFENDANT-APPELLEE RANDALL MULLIGAN:

Shannon A. Bertrand
Facey Goss & McPhee P.C.,
Rutland, VT.

Appeal from a judgment of the United States District Court for the District of Vermont (Crawford,
C.J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
Appellant Robert Grundstein, proceeding pro se, appeals the district court’s judgment
dismissing his amended complaint for lack of subject-matter jurisdiction.

Grundstein has

engaged in extensive litigation in state and federal court in connection with real property that he
and his siblings inherited. In this action, he sued Vermont’s attorney general, the Lamoille
Superior Court and its clerk of court, three state court orders, and the present owner of the property
under 42 U.S.C. § 1983 and state law. He asserts that the state court acted without jurisdiction
and in violation of his constitutional rights when it ordered partition of the property by sale and
awarded attorney’s fees and damages to his siblings. He also challenges the constitutionality of
certain state rules and procedures and seeks to set aside the present owner’s deed. We assume the

Case 19-2998, Document 89-1, 09/11/2020, 2928655, Page3 of 6

parties’ familiarity with the underlying facts, the procedural history of the case, and the issues on
appeal.
We review de novo the district court’s dismissal of the amended complaint for lack of
subject-matter jurisdiction pursuant to the Rooker-Feldman doctrine. Hoblock v. Albany Cnty.
Bd. of Elections, 422 F.3d 77, 83 (2d Cir. 2005). Under the Rooker-Feldman doctrine, lower
federal courts lack jurisdiction over “cases brought by state-court losers complaining of injuries
caused by state-court judgments rendered before the district court proceedings commenced and
inviting district court review and rejection of those judgments.” Exxon Mobil Corp. v. Saudi
Basic Indus. Corp., 544 U.S. 280, 284 (2005).1 The doctrine applies where the federal court
plaintiff: (1) lost in state court, (2) complains of injuries caused by a state-court judgment, (3)
invites the district court to review and reject the state-court judgment, and (4) commenced the
district court proceedings after the state-court judgment was rendered. Vossbrinck v. Accredited
Home Lenders, Inc., 113 F.3d 423, 426 (2d Cir. 2014).
The district court properly concluded that the Rooker-Feldman doctrine bars Grundstein’s
claims to the extent that he challenges the result of state court orders conferring title to the disputed
property to his siblings, ordering partition of the property by sale, and awarding his siblings
attorney’s fees and other damages, as well as other adverse orders entered by an allegedly biased
Vermont Superior Court judge and decisions made against him by the Vermont Supreme Court
pursuant to its expedited appellate procedure. Each of these orders was adverse to Grundstein,

i

Unless otherwise indicated, in quoting cases, we omit all internal citations, quotation
marks, footnotes, and alterations.
3

Case 19-2998, Document 89-1, 09/11/2020, 2928655, Page4 of 6

and each resulting judgment was entered prior to the commencement of this case in August 2017.
See Grundstein v. Levin, No. 2016-242, 2017 WL 571272, at *1 (Vt. Feb. 1, 2017) (unpublished)
(summarizing state-court litigation). Grundstein also complains of injuries caused by the statecourt judgments: the alleged injuries include Grundstein’s loss of title to the disputed property, the
requirement that he pay attorney’s fees and damages to his siblings, and the state court’s violation
of Grundstein’s constitutional rights. The amended complaint plainly invited the district court to
review and reject state court judgments by requesting that the court (1) find that the orders were
entered without jurisdiction, in contravention of state law, or in violation of his constitutional
rights, and (2) provide relief by striking the orders, enjoining their enforcement, or unwinding the
subsequent transfer of the property. Cf. Vossbrinck, 773 F.3d at 427 (finding it “evident from the
relief [plaintiff] requested]”—’which was title and tender of property and a declaration that a state
judgment was void—that the injury complained of was a state foreclosure judgment).
Grundstein’s challenges to this finding are without merit. Contrary to his argument,
Rooker-Feldman can reach issues that were not raised before or decided by the state court. See
Hoblock, 422 F.3d at 86 (“[Presenting in federal court a legal theory not raised in state court. . .
cannot insulate a federal plaintiffs suit from Rooker-Feldman if the federal suit nonetheless
complains of injury from a state-court judgment and seeks to have that state-court judgment
reversed.”). Nor have courts recognized general exceptions to the Rooker-Feldman doctrine for
federal suits asserting that the state court acted without jurisdiction or in violation of the
requirements of due process. See, e.g., Doe v. Mann, 415 F.3d 1038, 1042 n.6 (9th Cir. 2005)
(“Rooker-Feldman applies where the plaintiff in federal court claims that the state court did not

4

Case 19-2998, Document 89-1, 09/11/2020, 2928655, Page5 of 6

have jurisdiction to render a judgment.”); D.C. Ct. of Appeals v. Feldman, 460 U.S. 462, 486
(1983) (district courts lack jurisdiction “over challenges to state court decisions in particular cases
arising out of judicial proceedings even if those challenges allege that the state court’s action was
unconstitutional” because, in that event, review is appropriate only in the Supreme Court). There
is likewise no general exception to the doctrine when it is alleged that the state court judgment was
procured by fraud.

See Vossbrinck, 773 F.3d at 427 (claim that foreclosure judgment was

obtained by fraud was barred by Rooker-Feldman because it “would require the federal court to
review the state proceedings and determine that the foreclosure judgment was issued in error”).
To the extent that Grundstein raises general challenges to the constitutionality of statecourt rules and procedures that are not barred by the Rooker-Feldman doctrine in Counts 4 and 8
of his amended complaint, we affirm the district court’s dismissal of these claims because
Grundstein failed to establish standing. See Leon v. Murphy, 988 F.2d 303, 308 (2d Cir. 1993)
(noting that this Court may affirm a judgment on any ground “for which there is a record sufficient
to permit conclusions of law”). In order to establish standing, Grundstein had to plead that he
suffered an injury that is “concrete and particularized” and “actual or imminent” that was “fairly
traceable” to the challenged rules and procedures. Lujan v. Defs. of Wildlife, 504 U.S. 555, 560
(1992). Grundstein did not allege that he is involved in any ongoing state litigation in Vermont
or otherwise plead any facts from which we can infer that he will be injured by the prospective
application of Vermont Rule of Civil Procedure 8 or the Vermont Supreme Court’s expedited
appellate procedure.

The district court therefore properly dismissed Grundstein’s amended

complaint in remaining part. See id.

5

Case 19-2998, Document 89-1, 09/11/2020, 2928655, Page6 of 6

We have considered all of Grundstein’s remaining arguments and find them to be without
merit. Accordingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

6

Case 5:17-cv-00151-gwc Document 84 Filed 08/29/19 Page 1 of 1

United States District Court
for the
District of Vermont

Robert Grundstein
Plainliff(s)
V.

Lamoille Superior Docket Entries/Orders, Lamoille
Superior Docket Entry/Order, Lamoille Superior Clerk of
Court, Lamoille Superior Court, T.J. Donovan, Randall
Mulligan

)
)
)
)
)
)
)
)

Civil Action No. 5:J7-cv-151

Defendant(s)

JUDGMENT IN A CIVIL ACTION

□

Jury Verdict.

0

Decision by Court.

IT IS ORDERED AND ADJUDGED that pursuant to the court's Order (Document No. 37) filed September 7, 2018, defendant T.
J. Donovan's Motion to Dismiss (Document No. 11) and defendant Randall Mulligan's Motion to Dismiss Presenting Defenses of
Lack of Service of Process, Lack of Jurisdiction and Failure to State a Claim Under Rule 12(b) (Document No. 13) are GRANTED.
Plaintiffs First Amended Verified Complaint (Document No. 3) is DISMISSED WITHOUT PREJUDICE.
Additionally, pursuant to the court's Opinion and Order (Document No. 83) filed July 18, 2019, defendant Randall Mulligan's
Motion for Sanctions (Document No. 24) is DENIED.

Date:

August 29, 2019

JUDGMENT ENTERED ON DOCKET
DATE ENTERED: 8/29/2019

JEFFREYS. EATON
CLERK OF COURT

/s/ Elizabeth S. Britt
Signature of Clerk or Deputy Clerk

Case 5:17-cv-00151-gwc Document 83 Filed 07/18/19 Page 1 of 9
U.S. DISTRICT COURT
DISTRICT OF VERMONT

FILED

UNITED STATES DISTRICT COURT
FOR THE
DISTRICT OF VERMONT

eiER
BY

ROBERT GRUNDSTEIN,
Plaintiff,
v.

LAMOILLE SUPERIOR
DOCKET ENTRIES/ORDERS;
LAMOILLE SUPERIOR DOCKET
ENTRY/ORDER; LAMOILLE SUPERIOR
CLERIC OF COURT; LAMOILLE
SUPERIOR COURT; T.J. DONOVAN;
RANDALL MULLIGAN,
Defendants.

2019 JUL 18 PH 2:08

)
)
)
)
)
)
)
)
)

EfcTrrTIinNM

Case No. 5:17-cv-151

)
)
)
)
)
)

OPINION AND ORDER
(Docs. 24, 41,78, 80)

Plaintiff Robert Grundstein commenced this action in August 2017. A former attorney,
he represents himself. This case is one in a series of state and federal actions filed by Mr.
Grundstein about ownership of a family camp on Lake Eden in Vermont. Mr. Grundstein lost
his interest in the camp in state court litigation. He has long complained that the rulings of the
Vermont state courts were erroneous and unconstitutional. See Grundstein v. Levin, No. 2016242, 2017 WL 571272 (Vt. 2017)(fourth appeal to the Vermont Supreme Court).
Plaintiff s claims in this case concern four orders entered by the Vermont Superior Court,
Lamoille Unit. He alleged that these orders violated his due process rights as well as provisions
of state law. (Doc. 1).
In October 2017 Plaintiff filed a First Amended Complaint (“FAC”) adding a state-law
claim against Defendant Randall Mulligan to his existing claims against the Vermont judiciary.
On May 9, 2018, Defendant Mulligan moved for sanctions under Federal Rule of Civil
Procedure 11. (Doc.24.)

Case 5:17-cv-00151-gwc Document 83 Filed 07/18/19 Page 2 of 9

Ruling on multiple motions to dismiss, the court dismissed the FAC in its entirety n
September 7, 2018. (Doc. 37). Plaintiff filed a motion to set aside the judgment under Federal
Rule of Civil Procedure 60(b). (Doc. 41.)
On April 1 and June 25, 2019, the court held hearings on the motion for sanctions.
Plaintiff then filed motions to correct the record and to amend his complaint. (Docs. 78, 80.)
For the reasons discussed below, the motions are DENIED with the exception of the motion to
correct the record.
Procedural History
For the factual background of the case, please see the court’s September 7, 2018 Order
dismissing Plaintiffs FAC. (Doc. 37.)
As relevant here, Plaintiff brought Defendant Mulligan into this action in October 2017,
when he amended his complaint to include a claim to set aside the deed, to quiet title, and for
declaratory relief. Plaintiff alleged that although the property could not be sold without his
permission and signatures, it was transferred to Defendant Mulligan on June 5, 2017. (Doc. 3
89-102.) Defendant Mulligan was served on March 27, 2018, and his attorneys entered their
notice of appearance together with a motion to dismiss the complaint on April 12, 2018. The
motion notified the court that Defendant Mulligan intended to serve Plaintiff with a motion for
sanctions under Rule 11 simultaneously with the motion to dismiss. (Doc. 13-1 at 11 n.3.) On
May 1, 2018, Plaintiff filed a preemptive response to Defendant Mulligan’s not-yet-filed motion
for sanctions. (Doc. 21.) On May 9, 2018, Defendant Mulligan filed the motion for sanctions
with the court.
In ruling on the motions to dismiss, the court held it lacked subject-matter jurisdiction to
review the decisions rendered against Mr. Grundstein in the state courts under the RookerFeldman doctrine (Doc. 37 at 9) and, because it lacked federal question jurisdiction,
2

Case 5:17-cv-00151-gwc Document 83 Filed 07/18/19 Page 3 of 9

supplemental jurisdiction over the state-law claim against Mr. Mulligan regarding the property
was never present (id. at 12). With regard to the motion for sanctions, the court allowed
Defendant Mulligan ten days within which to notify the court if he intended to pursue the motion
in light of the dismissal of the claim against him. The court noted a further hearing would be
required on the motion for sanctions.
Following Defendant Mulligan’s September 14,2018 response, a hearing was initially
scheduled for October 3, 2018. (See Docs. 38-39.) On September 20, Plaintiff filed a motion to
set aside the judgment under Rule 60(b) and, on September 26, Plaintiff filed a hearing brief.
(Docs. 41, 45.) On October 2, Defendant Mulligan filed an emergency motion to continue the
hearing as a result of a medical emergency suffered by his attorney. The motion was granted and
the hearing, after counsel’s recovery, rescheduled. (See Docs. 47, 56.)
Plaintiff did not attend the April 1, 2019 hearing on the motion for sanctions. The court
heard argument and received evidence from counsel for Defendant Mulligan. Among the
evidence presented was testimony by attorney Melissa Thomas of Facey Goss & McPhee, P.C.,
one of Defendant Mulligan’s attorneys, regarding the billing records of the firm with regard to
this case as well as by attorney Thomas Aicher of Cleary Shahi & Aicher, P.C., who opined as to
the reasonableness and necessity of the hourly rate and amount of attorneys’ fees. The court
admitted Exhibit E, the billing records of Defendant Mulligan’s attorneys from October 2017
through January 2019. On April 2, the court issued an order allowing Plaintiff two weeks to
submit a written response to the exhibit. (Doc. 63.)
On April 12, 2019, Plaintiff filed a motion to reconvene the hearing. (Docs. 65.) On
April 13 and 15, Plaintiff filed responses to evidence introduced at the first sanctions hearing.
(Docs. 66-68.) On May 31, the court granted the motion to reconvene the hearing. (Doc. 72.)
The court held a second hearing on Defendant Mulligan’s motion for sanctions on June 25, 2019.
3

Case 5:17-cv-00151-gwc Document 83 Filed 07/18/19 Page 4 of 9

The court again heard argument from the parties and received evidence from counsel for
Defendant Mulligan. Among the evidence presented was testimony by Thomas, Aicher, and
Mr. Grundstein. The court took the motion under advisement.
On the day of the reopened hearing, Plaintiff filed a motion to correct the record with
respect (1) to a representation made at the hearing regarding a prior state court action and
(2) “confusion with safe harbor compliance created by simultaneous actions.” (Doc. 78 at 1,3.)
Following the reopened hearing, Plaintiff filed a proposed order regarding the sanctions motion
(Doc. 79), a motion to amend his complaint (Doc. 80), and a proposed order regarding his Rule
60(b) motion (Doc. 82). Defendant Mulligan opposes the motion to amend. (Doc.81.) ■
Analysis
I.

Motion for Sanctions (Doc. 24)
A. Requirements of Federal Rule of Civil Procedure 11
Rule 11 requires the “attorney or unrepresented party” filing litigation documents to

certify that the documents:
(1) [are] not being presented for any improper purpose, such as to harass,
cause unnecessary delay, or needlessly increase the cost of litigation;
(2) the claims defenses, and other legal contentions are warranted by
exiting law or by a nonfrivolous argument for extending, modifying, or reversing
existing law or for establishing new law; [and]
(3) the factual contentions have evidentiary support or, if specifically so
identified, will likely have evidentiary support after a reasonable opportunity for
further investigation or discovery.
Fed. R. Civ. P. 11 (b)(l)-(3). Under Rule 11 (c), a motion for sanctions must be served but may
not be filed “if the challenged paper, claim, defense, contention, or denial is withdrawn or
appropriately corrected within 21 days after service.” Id. 11(c)(2). If, on motion and after notice
and a reasonable opportunity to be heard, the court determines that Rule 11(b) has been violated,
“the court may impose an appropriate sanction,” such as “an order directing payment to the
4

Case 5:17-cv-00151-gwc Document 83 Filed 07/18/19 Page 5 of 9

movant of part or all of the reasonable attorney’s fees and other expenses directly resulting from
the violation.” Id, 11(c)(1), (4). A district court’s determination of sanctions under Rule 11 is
reviewed for abuse of discretion. Kim v. Kimm, 884 F.3d 98,106 (2d Cir. 2018).
“[T]he standard for triggering sanctions under Rule 11 is objective unreasonableness.”
Star MarkMgmt., Inc. v. Koon Chun HingKee Soy & Sauce Factory, Ltd,, 682 F.3d 170, 178
(2d Cir. 2012) (internal quotation marks omitted). With respect to legal contentions, the
“operative question is whether the argument is frivolous, i.e., the legal position has no chance of
success, and there is no reasonable argument to extend, modify or reverse the law as it stands.”
Fishoff v. Coly Inc., 634 F.3d 647, 654 (2d Cir. 2011) (internal quotation marks omitted). The
imposition of Rule 11 sanctions “should be reserved for extreme cases, and ‘all doubts should be
resolved in favor of the signing’” party. Sorenson v. Wolfson, 170 F. Supp. 3d 622, 626
(S.D.N.Y. 2016) (quoting K.M.B. Warehouse Distribs., Inc. v. Walker Mfg. Co., 61 F.3d 123,
131 (2d Cir. 1995)). Rule 11 applies both to unrepresented and self-represented litigants.
Maduakolam v. Columbia Univ., 866 F.2d 53, 56 (2d Cir. 1989).
Under its inherent powers, a district court has the authority to award attorney’s fees to the
prevailing party when the losing party “has acted in bad faith, vexatiously, wantonly, or for
oppressive reasons.” F.D. Rich Co. v. United States ex rel. Indus. Lumber Co., 417 U.S. 116,
129 (1974); see also Oliveri v. Thompson, 803 F.2d 1265, 1272 (2d Cir. 1986).
B. Compliance with Rule 11(c)(2)
As an initial matter, the court will not consider Defendant Mulligan’s motion for
sanctions if Defendant did not comply with Rule 11(c)(2), which requires the motion be served
under Rule 5 but not be filed for at least 21 days. Plaintiff asserts Defendant did not follow the
requirements of the rule because he was “served the Federal Motion the same day it was filed in
Federal Court.” (Doc. 21 at 3.) Plaintiff makes this assertion in a filing titled “Response to
5

Case 5:17-cv-00151-gwc Document 83 Filed 07/18/19 Page 6 of 9

Mulligan Civ. Rule 11 Motion” that was filed on May 1, 2018. Defendant Mulligan’s motion for
sanctions, however, was not filed with the court until May 9, 2018. (See Doc. 24.)
Defendant Mulligan’s attorney, Rodney McPhee, submitted an affidavit with the motion
for sanctions in which he detailed his compliance with Rule 11(c)(2). (See Doc. 24-4.) The
motion for sanctions was served on Plaintiff on April 12, 2018. (Doc. 24-4 at 3.) On May 9,
more than 21 days after service of the motion on Plaintiff, Defendant Mulligan filed the motion
for sanctions with the court as Plaintiff had not withdrawn his claim against Defendant Mulligan.
On June 25, 2019, the day of the second hearing on the motion for sanctions, Plaintiff
filed a motion to correct the record with a section titled “Confusion with safe harbor compliance
created by simultaneous actions.” (Doc. 78 at 3.) He stated: “Since there were two actions on
the same facts and related causes of action, it was possible to become confused with respect to
what Civ. Rule 11 ‘Safe Harbor’ documents were served with respect to which actions.” Id.
Plaintiffs motion to correct the record is GRANTED. The motion disposes of his claim
that Defendant Mulligan failed to comply with Rule 11(c)(2). The court proceeds to consider
the merits of the motion for sanctions.
C.

Merits of Rule 11 Motion

Defendant Mulligan asserts sanctions against Plaintiff are necessary in this case because
Plaintiff continues to seek review of final state court proceedings in federal court
notwithstanding the failure of his first federal case for lack of subject matter jurisdiction.
Defendant Mulligan asserts Plaintiffs “allegations concerning Mulligan seem related to his
ownership interest in the property he purchased from Grundstein’s siblings, but Grundstein does
not actually allege facts that would indicate Mulligan did anything violating or requiring the
extension or reversal of a Federal law.” (Doc. 24 at 4-5.) Defendant Mulligan seeks reasonable
expenses and attorney’s fees incurred in presenting the motion for sanctions and in defense of
6

Case 5:17-cv-00151-gwc Document 83 Filed 07/18/19 Page 7 of 9

Plaintiffs complaint. At the April 1 motion hearing, Defendant Mulligan clarified he did not
seek attorney’s fees for the time to prepare for and appear at the hearing and was requesting
$10,000 in attorney’s fees incurred in defending the federal action, a reduction from the $13,000
(or more) actually expended.
Though Plaintiff has filed multiple state and federal prior actions concerning the Lake
Eden property, the FAC contained Plaintiffs first claim against Defendant Mulligan in this
court. The claim was dismissed at an early stage under F.R.Civ.P. 12(b) for lack of supplemental
jurisdiction over the state-law claim. Accordingly, the court did not reach the merits of the
claim. See Carter v. HealthPort Tech., LLC, 822 F.3d 47, 54-55 (2d Cir. 2016) (noting that
where a court lacks jurisdiction, it “lacks the power to adjudicate the merits of the case”).
The court denies the motion for sanctions because this litigation concluded at an early
stage before the court reached the merits. The case was dismissed because the constitutional
claims sought to review the decisions of the Vermont state courts. The claim brought against
Defendant Mulligan was brought under state law only and was dismissed because there was no
longer a basis for federal question jurisdiction and the court declined to extend supplemental
jurisdiction to the state law claims. The court harbors no illusions about the repetitive, baseless
qualities of Plaintiff s lawsuits against people involved in the dispute over the family camp and,
in this case, even against the very docket entries in his state court case. But having dismissed the
FAC on jurisdictional grounds, the court is cautious about imposing monetary sanctions in a case
in which it has not considered the merits. See Sorenson, 170 F. Supp. 3d at 626 (“Courts should
be cautious in granting Rule 11 sanctions.)
Defendant Mulligan’s Rule 11 motion is DENIED.

7

Case 5:17-cv-00151-gwc Document 83 Filed 07/18/19 Page 8 of 9

D. Filing Injunction
Defendant Mulligan also requests the court issue an order requiring Mr, Grundstein to
“apply to the Court for leave to file any further pleadings with this Court in matters concerning
Defendant Mulligan or the Lake Eden property,” and further requiring leave be denied “unless
[he] has retained a licensed attorney admitted to practice before this Court to represent him.”
(Doc. 28 at 2; Doc. 62 (Proposed Order) at 2.)
District courts “have the power and the obligation to protect the public and the efficient
administration of justice from individuals who have a history of litigation entailing vexation,
harassment and needless expense to [other parties] and an unnecessary burden on the courts and
their supporting personnel.” Lau v. Meddaugh, 229 F.3d 121, 123 (2d Cir. 2000) (internal
quotation marks omitted); Safir v. US. Lines, Inc., 792 F.2d 19, 23 (2d Cir. 1986) (“A district
court not only may but should protect its ability to carry out its constitutional functions against
the threat of onerous, multiplicitous, and baseless litigation”) (internal quotation marks omitted).
Thus, the court may prohibit an individual from filing new actions in the venue when he or she
“abusefs] the process of the Courts to harass and annoy others with meritless, frivolous,
vexatious or repetitive [filings.]” In re Hartford Textile Corp., 659 F.2d 299, 305 (2d Cir. 1981).
However, the court “may not impose a filing injunction on a litigant sua sponte without
providing [that] litigant with notice and an opportunity to be heard.” Moates v. Barkley,
147 F.3d 207, 208 (2d Cir. 1998).
In this case, Defendant Mulligan’s request for a filing injunction is premature and his
request to require a licensed attorney represent Plaintiff reaches too far. The Constitution
provides a right of access to the courts. See Cal. Motor Transport Co. v. Trucking Unlimited,
404 U.S. 508, 510 (1972) (stating the “right of access to the courts is . . . one aspect of the right
of petition” protected by the Bill of Rights). With regard to a filing injunction, Mr. Grundstein is
8

Case 5:17-cv-00151-gwc Document 83 Filed 07/18/19 Page 9 of 9

hereby warned that future filings or new actions which lack merit for the reasons set out in the
rulings in this case will be subject to the potential sanction of a filing injunction.
II.

Motion to Modify Order (Doc. 41).

Plaintiff has filed a motion to modify its order of September 7, 2018. The motion repeats the
legal arguments plaintiff has already advanced concerning his views about the shortcomings and
failures of the Vermont judicial system. It illustrates the reason this court dismissed the FAC as
an improper effort to obtain review of state court decision-making. The motion is DENIED.
III.

Motion to Amend (Doc. 80).

In ruling on Plaintiffs appeal in Grundstein v. Levin, No. 2016-242, 2017 WL 571272, the
Vermont Supreme Court reduced an award of attorneys fees to Plaintiffs siblings. Plaintiff filed
a motion to amend the FAC to reflect this change. (Doc. 80). The motion to amend is rendered
moot by the dismissal of the case.
Conclusion
For the reasons discussed above, Defendant Mulligan’s Motion for Sanctions (Doc. 24) is
DENIED. Plaintiff Grundstein’s Rule 60(b) Motion (Doc. 41) is DENIED. Plaintiffs Motion to
Correct Record (Doc. 78) is GRANTED. Plaintiffs Motion to Amend Complaint (Doc. 80) is
DENIED AS MOOT.
Dated at Rutland, in the District of Vermont, this

day of July, 2019.
•O

3

Geoffrey W. Crawford, Chief Judge
United States District Court

9

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 1 of 15
U.f,.u!CTfUCT COURT
DISTFUC1 OF VERMONT
FILED
UNITED STATES DISTRICT COURT
FOR THE
DISTRICT OF VERMONT
ROBERT GRUNDSTEIN,
Plaintiff,
v.

LAMOILLE SUPERIOR
DOCKET ENTRIES/ORDERS;
LAMOILLE SUPERIOR DOCKET
ENTRY/ORDER; LAMOILLE SUPERIOR
CLERK OF COURT; LAMOILLE
SUPERIOR COURT; T.J. DONOVAN;
RANDALL MULLIGAN,
Defendants.

)
)
)
)
)
)
)
)
)

2111 SEP-7 PM 12= 10
CLERK

b y___

[$y±L—

deputy clerk

Case No. 5:17-cv-151

)
)
)
)
)
)

ORDER ON MOTIONS TO DISMISS, MOTION FOR SANCTIONS
AND MOTION TO STRIKE OFFER OF SETTLEMENT AGREEMENT
(Docs. 11, 13,24, 26)
Plaintiff Robert Grundstein, proceeding pro se, initially brought this action against
Lamoille Superior Court Docket Entries and Orders, the Lamoille Superior Court and its Clerk of
Court, and Vermont Attorney General T.J. Donovan. (Doc. 1.) The action concerns a property
in Lake Eden, Vermont that has been the subject of considerable litigation. (See id. at 3-4.) On
October 10, 2017, Mr. Grundstein filed a First Amended Complaint adding a claim and naming
Randall Mulligan as a defendant. (Doc. 3.) On April 4, 2018, the Vermont Attorney General,
Thomas J. Donovan, Jr., moved to dismiss the action in its entirety under Federal Rule of Civil
Procedure 12(b)(1) for lack of subject-matter jurisdiction. (Doc. 11.) On April 12, 2018,
Defendant Randall Mulligan moved to dismiss the action under Federal Rule of Civil Procedure
12(b)(1), (4), (5), and (6). (Doc. 13.) Mr. Grundstein opposes the motions. (Docs. 14—15, 17,
21-22.)

1

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 2 of 15

Following these responses, on May 9, 2018, Mr. Mulligan filed a motion for sanctions
under Federal Rule of Civil Procedure 11. (Docs. 24, 28.) Mr. Grundstein did not respond to the
motion for sanctions. Instead, he filed an Offer of Settlement Agreement (Doc. 25) which
Mr. Mulligan then moved to strike on June 20, 2018 (Doc. 26). Mr. Grundstein filed a response
to the motion to strike on July 9. (Doc. 27.) For the reasons discussed below, the motions to
dismiss are granted and the motion to strike is denied as moot.
Background l
Mr. Grundstein and his siblings inherited a camp on Lake Eden in Vermont. In August
2005, Mr. Grundstein’s siblings brought a partition action in Lamoille Superior Court. On
August 3,2007, following a hearing, the trial court assigned the property to Mr. Grundstein
subject to conditions. Mr. Grundstein attached the state court’s August 3, 2007 Final Judgment
to his original complaint in this federal case. It stated in part:
All right, title and interest in and to the subject real property is hereby assigned
and conveyed solely to Defendant Robert H. Grundstein ... all subject to the
terms and provisions of the Order of the court stated in separate Findings of Fact,
Conclusions of Law, and Order of even date herewith.
(Doc. 1-1 (citing 12 V.S.A. § 5174) (emphasis added).) The salient condition was that he
pay his three siblings $25,000 each for their shares by June 1, 2008. If he failed to make
the payments, the property would be put up for sale and the proceeds divided among all
four owners.

i

This factual summary is largely derived from the Vermont Supreme Court’s opinions in
Levin v. Grundstein, No. 2011-201, 2013 WL 2631310 (Vt. Apr. 18, 2013) (mem.), and
Grundstein v. Levin, No. 2016-242, 2017 WL 571272 (Vt. Feb. 1, 2017) (mem.). Those
Vermont Supreme Court opinions—like all of the Vermont Supreme Court opinions in
Mr. Grundstein’s appeals discussed below—were decided by a three-justice panel of the Court
under the provisions of V.R.A.P. 33.1 (Summary Procedures on Appeal).
2

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 3 of 15

Mr. Grundstein did not make the payments. His siblings found a buyer in the summer of
2008 and planned to close the following October. After Mr. Grundstein refused to vacate the
property, his siblings obtained an injunction on September 29, 2008, requiring him to vacate the
property and to remove his personal possessions. He appealed the order and the Vermont
Supreme Court affirmed, holding that the partition order was proper and that Mr. Grundstein
“did not obtain a fee simple interest in the property ... without first having paid the money
required to obtain such an interest.” Levin v. Grundstein, No. 2008-417, 2009 WL 2427820,
at *1 (Vt. Mar. 5, 2009) (mem.).
Mr. Grundstein’s continued interference doomed the sale. His siblings sought an order of
contempt for violation of the August 2007 judgment order. On June 22, 2009, following a
hearing, the trial court granted the contempt motion but allowed Mr. Grundstein to comply with
the prior order by June 26, which he again failed to do. On July 6, 2009, the trial court issued a
final order of contempt. Mr. Grundstein appealed the order and the Vermont Supreme Court
affirmed, holding that his “vague constitutional arguments claiming a deprivation of property
without due process have no merit.” Levin v. Grundstein, No. 2009-254, 2010 WL 1266673,
at *1 (Vt. Apr. 1,2010) (mem.).
In June 2009, Mr. Grundstein’s siblings moved for an award of attorney’s fees. In
February 2011, the trial court held a hearing on several pending motions, including the motion
for attorney’s fees and a motion to amend the partition judgment. On April 22, 2011, the trial
court granted the motion to amend, assigning Mr. Grundstein’s siblings title to the property,
granting Mr. Grundstein a one-quarter interest in the proceeds of any sale, and granting the
siblings’ motion for attorney’s fees. See Levin v. Grundstein, No. 2011-201, 2013 WL 2631310,
at *2 (Vt. Apr. 18, 2013) (mem.). The trial court, however, sought more detailed billing

3

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 4 of 15

information from the siblings’ attorney on the issue of the amount of the fees. Mr. Grundstein
appealed the order. The appeal was stayed and the matter remanded to the trial court to rule on
post-judgment motions. See id.
On January 24, 2012, the trial court denied Mr. Grundstein’s motion to reconsider the
April 22, 2011 order, denied his motion for access to the property, and granted his request for
additional time to file objections to the attorney’s billing statements. On January 8, 2013,
following an evidentiary hearing, the trial court entered an order awarding attorney’s fees of
$10,622.11. The court ruled that Mr. Grundstein’s intentional and repeated efforts to delay and
frustrate his siblings’ established right to sell the property, in violation of a court order, entitled
them to attorney’s fees under the limited exception to the “American Rule” for wrongful
conduct. Mr. Grundstein appealed the order and the Vermont Supreme Court affirmed, finding
no merit in his claims that the fee award was untimely, was unauthorized by any statutory or
contractual provision, failed to comply with Rule 11, was legally and factually unsupported, and
was based on fraudulent billing records. Levin, 2013 WL 2631310, at *3.
Mr. Grundstein then initiated an action in Lamoille Superior Court against his sister for
conversion of the personal property he left at the camp. She counterclaimed for abuse of process
and malicious prosecution, seeking to recover for the financial loss incurred from the failure of
the planned sale of the camp and other damages. This new action was consolidated with the
ongoing partition proceeding. In July 2015, the trial court held an evidentiary hearing on the
claims.
The trial court issued a written ruling on July 15, 2016. The court noted that
Mr. Grundstein had waived his conversion claim at the hearing and had only contested whether
he owed any fees for storage of his personal property removed by his siblings. With regard to

4

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 5 of 15

the counterclaims, the court rejected the abuse-of-process claim but upheld the malicious
prosecution claim. The court awarded damages of $84,218 for the lost sale of the camp,
subsequent property repairs and maintenance, property taxes paid, and moving and storage fees
for Mr. Grundstein’s personal property, as well as the previously awarded attorney’s fees.
Mr. Grundstein appealed the order.
The Vermont Supreme Court rejected Mr. Grundstein’s claim that he was not “afforded
‘fair notice of the likely severity’ of the damage award, in violation [of] V.R.C.P. 8 and his
constitutional due process rights.” Id. at *2. The Court ruled that the elements of his
counterclaim were not proven and that there was no basis for recusal of the trial judge. The
Court denied Mr. Grundstein’s claims that the award of attorney’s fees against him was a court
“sanction” imposed without due process and that the trial court erred in denying a motion to
compel mediation. Id. at *2-3. Accordingly, the Vermont Supreme Court affirmed the trial
court decision in all respects except that it reduced the damage award to $69,272 because the
attorney’s fees could not be included as the final judgment in the partition action had already
awarded the same relief. Grundstein v. Levin, No. 2016-242, 2017 WL 571272, at *3 (Vt. Feb.
1,2017) (mem.).
In May 2011, Mr. Grundstein filed his first action in federal court regarding the Lake
Eden property. See Grundstein v. Vermont, No. 1:11-cv-134, 2011 WL 6291955 (D. Vt.
Dec. 15, 2011). He sued the State of Vermont and various members of the Vermont judiciary,
claiming rulings issued in the state-court proceedings were erroneous and unconstitutional. Id.
at * 1. The court granted defendants’ motions to dismiss, holding that it lacked subject-matter
jurisdiction under the doctrines of Rooker-Feldman and Younger abstention. Id. at *2-5.

5

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 6 of 15

Mr. Grundstein commenced this case on August 7, 2017, and filed a First Amended
Complaint (“FAC”) on October 10, 2017. Mr. Grundstein alleges the court has federal-question
jurisdiction under 28 U.S.C. § 1331 because his federal constitutional rights have been violated.
(Doc. 3 at 3.) He also seeks “relief under the Federal Declaratory Relief statute,”
28 U.S.C. § 2201. (Id.) He notes the FAC is concerned with four state trial court orders: (1) the
August 3, 2007 order, “in which all legal interest in a subject property was given to Grundstein,
subject to an equitable interest in proceeds to former joint tenants”; (2) the
January 24, 2012 order, “which, without jurisdiction or due process, illegally removed the
interest created in [the August 3] Order... and Grundstein’s right to enter and remain on his
property”; (3) the January 8,2013 order, “which, without jurisdiction or due process, awarded a
penalty of $10,000 as attorney fees to plaintiffs without Notice, Due Process, compliance with
[V.R.C.P.] Rule 11 or authority”; and (4) the June 15, 2016 order, “by which damages of
$84,000.00 were awarded without notice of charges, presentment of evidence and opportunity to
address charges.” (Id. at 3-4.)
The FAC added a claim to “set aside deed,” quiet title, and for declaratory relief.2
(Doc. 3 at 14.) Mr. Grundstein alleges that although the property could not be sold without his
“permission and signatures,” the Lake Eden property was transferred to Defendant Randall
Mulligan on June 5, 2017. (Id. at 15.) He states the court has subject-matter jurisdiction over the
claim for declaratory relief based on supplemental jurisdiction. (Id.)

2 On August 7, 2018, the court granted Mr. Grundstein’s August 3 motion to amend his
complaint and responses to the defendants’ motions to dismiss. (See Docs. 30, 31.) The only
change to the FAC, which the court continues to consider the operative complaint, is to the title
of Count IX. (See Doc. 30 at 1.)
6

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 7 of 15

Mr. Grundstein seeks various injunctive and declaratory relief including requesting the
court order the state court clerks to strike state court orders from the dockets. He also seeks an
order from this court declaring the Vermont Supreme Court’s Expedited Docket procedure
unconstitutional. See V.R.A.P. 33.1 (Summary Procedures on Appeal).
Analysis
I.

Motions to Dismiss
a. Rule 12(b)(1) Standard
A case is properly dismissed under Federal Rule of Civil Procedure 12(b)(1) “for lack of

subject matter jurisdiction if the court ‘lacks the statutory or constitutional power to adjudicate
it...Cortlandt St. Recovery Corp. v. Hellas Telecomms., S.A.R.L., 790 F.3d 411, 417
(2d Cir. 2015) (quoting Makarova v. United States, 201 F.3d 110, 113 (2d Cir. 2000)).
Determining subject-matter jurisdiction is a “threshold inquiry,” and should be addressed prior to
any consideration of a complaint’s substantive merits. Arar v. Ashcroft, 532 F.3d 157,168
(2d Cir. 2008). On a Rule 12(b)(1) motion, the court accepts as true ‘“all material allegations of
the complaint[] and . . . construe[s] the complaint in favor the complaining party.’” Cortlandt
St., 790 F.3d at 417 (first brackets in original) (quoting W.R. Huff Asset Mgmt. Co. v. Deloitte &
Touche LLP, 549 F.3d 100, 106 (2d Cir. 2008)). “In deciding a Rule 12(b)(1) motion, the court
may also rely on evidence outside the complaint.” Id. The plaintiff bears the burden of proof of
establishing jurisdiction by a preponderance of the evidence. Makarova, 201 F.3d at 113
(2d Cir. 2000); see also Blockbuster, Inc. v. Galeno, 472 F.3d 53, 57 (2d Cir. 2006).
b. Rooker-Feldman Doctrine
The Rooker-Feldman doctrine “established the clear principle that federal district courts
lack jurisdiction over suits that are, in substance, appeals from state-court judgmentsf.]”

7

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 8 of 15

Hoblock v. Albany Cty. Bd. of Elections, 422 F.3d 77, 84 (2d Cir. 2005). The doctrine “pertains
not to the validity of the suit but to the federal court’s subject matter jurisdiction to hear it.”
Vossbrinckv. Accredited Home Lenders, Inc., 773 F.3d 423, 427 (2d Cir. 2014). Federal courts
may not entertain “cases brought by state-court losers complaining of injuries caused by statecourt judgments rendered before the district court proceedings commenced and inviting district
court review and rejection of those judgments.” Exxon Mobil Corp. v. Saudi Basic Indus. Corp.,
544 U.S. 280, 284 (2005). When it is asserted that a prior state court order precludes federal
jurisdiction under the Rooker-Feldman doctrine, “the Court takes judicial notice of the state court
record.” Gadreault v. Grearson, No. 2:1 l-cv-63, 2011 WL 4915746, at * 1 n.l (D. Vt. Oct. 14,
2011).
The Second Circuit has identified four requirements for the application of the RookerFeldman doctrine:
First, the federal-court plaintiff must have lost in state court. Second, the
plaintiff must “complain[] of injuries caused by [a] state-court judgment[.]”
Third, the plaintiff must “invit[ej district court review and rejection of [that]
judgment^.” Fourth, the state-court judgment must have been “rendered
before the district court proceedings commenced”—i.e., Rooker-Feldman has
no application to federal-court suits proceeding in parallel with ongoing statecourt litigation.
Hoblock, 422 F.3d at 85 (citing Exxon Mobil, 544 U.S. at 284).
The first and last requirements are procedural. Here, the first is satisfied because
Mr. Grundstein “has lost repeatedly in state court.” See Grundstein v. Vermont, No. 1:11-cv134, 2011 WL 6291955, at *3 (D. Vt. Dec. 15, 2011). He has appealed multiple times and lost
each appeal. The FAC makes it clear that he wishes this court to review four state-court orders
in which he was the losing party. The last Rooker-Feldman requirement is satisfied because each

8

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 9 of 15

of the orders referenced in the FAC was issued as of August 2017, when Grundstein commenced
this case in this federal district court.
The second and third requirements are substantive. “[A] federal suit complains of injury
from a state-court judgment, even if it appears to complain only of a third party’s actions, when
the third party’s actions are produced by a state-court judgment.” Hoblock, 422 F.3d at 88.
Mr. Grundstein complains of injuries he has suffered from the state-court orders relating to the
Lake Eden property and he seeks damages aimed at compensating him for its loss. He also
alleges the rulings have violated his constitutional rights. Because granting the relief
Mr. Grundstein seeks would require the court, impermissibly, to review and reject the four statecourt orders, the court finds his claims satisfy the second and third requirements. See id at 87
(noting that if a plaintiff alleges in federal court that a state court order terminating his
constitutional rights was unconstitutional, “he is complaining of an injury caused by the state
judgment”).
Because all four requirements of the Rooker-Feldman doctrine are satisfied, this court
lacks subject-matter jurisdiction to review the decisions rendered against Mr. Grundstein in the
state courts. “[Ojnly the Supreme Court [of the United States] may hear appeals from state-court
judgments.” Id. Accordingly, the court lacks jurisdiction over Counts I, II, III, IV (to the extent
it seeks to enjoin the state-court damage award), V, VI, VII3 and VIII (to the extent it seeks to

3 Count VII, titled “Judge Bias Spoils Due Processf;] Need Peremptory Right of
Recusal,” purports to allege that Vermont Judge Pearson was biased and seeks declaratory and
injunctive relief against state-court orders, in particular the June 15, 2016 Order. {See Doc. 3
at 13.) Mr. Grundstein has litigated his allegations of bias against Judge Pearson, and the
Vermont Supreme Court has rejected them. In affirming the June 15 Order, the Supreme Court
stated:
Plaintiff next contends that the trial judge “should have recused himself,”
arguing that the amount of the award alone “was sufficient” to prove bias, and
9

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 10 of 15

enjoin the Supreme Court order) under the Rooker-Feldman doctrine. The Attorney General’s
motion to dismiss (Doc. 11) must be GRANTED as to those counts because this court lacks
subject-matter jurisdiction.
c. Res Judicata
Mr. Grundstein’s claims would also be barred by res judicata because they are predicated
on the same transactions and occurrences that formed the basis of his previous state-court
actions. Res judicata, “a rule of fundamental repose,” provides that:
when a court of competent jurisdiction has entered a final judgment on the merits
of a cause of action, the parties to the suit and their privies are thereafter bound
not only as to every matter which was offered and received ... but as to any other
admissible matter which might have been offered for that purpose.
In re Teltronics Servs., Inc., 762 F.2d 185, 190 (2d Cir. 1985). Accordingly, “[e]ven claims
based upon different legal theories are barred [by res judicata] provided they arise from the same
transaction or occurrence.” L-Tec Elecs. Corp. v. Cougar Elec. Org., Inc., 198 F.3d 85, 88
(2d Cir. 1999).
Here, as discussed above, Mr. Grundstein has extensively litigated issues relating to the
Lake Eden camp. The remaining counts of his current Complaint either were or could have been
raised in those actions. Count VIII of the FAC alleges the Vermont Supreme Court’s procedure
for three-justice appeals violates equal protection and seeks an injunction against “orders
generated pursuant to defective procedure.” (See Doc. 3 at 13-14.) To the extent

that the trial judge had “a history of personal animus” toward plaintiff as
demonstrated by a variety of rulings against him. These allegations are
insufficient to demonstrate bias. Plaintiffs related argument that he should have
had the “peremptory” right to remove a judge is unsupported, and contravenes the
salutary and well settled principle that courts enjoy a “presumption of honesty and
integrity” and the burden is on “the moving party to show otherwise.”
Grundstein, 2017 WL 571272, at *3 (internal citations omitted).
10

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 11 of 15

Mr. Grundstein seeks to challenge the outcome of his Vermont Supreme Court appeal, his claim
is barred by Rooker-Feldman as discussed above. To the extent he seeks generally to challenge
the constitutionality of the Vermont Supreme Court’s use of three-justice panels, this claim could
have been raised in that appeal and is accordingly barred by res judicata. L-Tec Elecs. Corp.,
198 F.3d at 88 (“[CJlaims based upon different legal theories are barred [by res judicata]
provided they arise from the same transaction or occurrence”).4 The Attorney General’s motion
to dismiss (Doc. 11) is GRANTED as to the remainder of Count VIII because it is barred by res
judicata.
d. Defendant Mulligan’s Motion to Dismiss
Defendant Randall Mulligan purchased the Lake Eden property from Mr. Grundstein’s
siblings in June 2017. (Doc 3 at 15; Doc. 13-1 at 3.) Mr. Mulligan moves to dismiss the claim
against him arguing the court lacks subject-matter jurisdiction, improper venue, insufficient
process or service of process, and failure to state a claim upon which relief can be granted.
(Doc. 13.)

4 Although the Attorney General focuses on these procedural points, they are hardly the
only deficiencies in the claim. The Vermont Supreme Court considered and rejected a similar
challenge premised on provisions of Vermont law. See State v. Mills, 167 Vt. 365, 371,
706 A.2d 953, 956 (1998) (“[TJhere is no constitutional impediment to the summary procedure
created by V.R.A.P. 33.1.”). And Mr. Grundstein cites no plausible basis for his claim that the
Vermont Supreme Court’s use of three-justice panels violates the federal Equal Protection
Clause or other federal law. He cites no authority aside from referring to statistics of appellants’
success rates on appeal before three-justice panels compared to the full five-justice Vermont
Supreme Court. See Tracy Bach, To Expediency and Beyond: Vermont’s Rocket Docket, 4 J.
App. Prac. & Process 277 (2002). But Professor Bach found nothing unjust about the summary
procedures. See id. at 288 (“[l]t strikes a reasonable balance among efficacy, cost-effectiveness,
and fairness.”). Notably, cases before the federal intermediate appellate courts are routinely
decided by panels of three judges with no suggestion of constitutional infirmity. See 28 U.S.C.
§ 46(b) (circuit courts may authorize hearing and determination of cases and controversies by
separate three-judge panels).
11

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 12 of 15

Defendant Mulligan first argues that the court lacks subject-matter jurisdiction because
diversity is lacking between himself and Mr. Grundstein, both Vermont residents.
Mr. Grundstein, however, has filed suit alleging the court has federal question jurisdiction and
invokes supplemental jurisdiction over his state-law claim against Mr. Mulligan. (Doc. 3 at 1415.)
A “district court ‘cannot exercise supplemental jurisdiction unless there is first a proper
basis for original federal jurisdiction.’” Cohen v. Postal Holdings, LLC, 873 F.3d 394, 399
(2d Cir. 2017) (quoting Nowak v. Ironworkers Local 6 Pension Fund, 81 F.3d 1182, 1187
(2d Cir. 1996)). Subject-matter jurisdiction over the state-law claim against Defendant Mulligan
is lacking because of the court’s dismissal of the alleged federal-question claims. Because the
court dismissed all federal claims for lack of subject-matter jurisdiction under Rule 12(b)(1), it is
“precluded from exercising supplemental jurisdiction over related state-law claims.” Cohen,
873 F.3d at 399.
This is not a case like Catzin v. Thank You & Good Luck Corp., No. 17-2497, 2018 WL
3747364 (2d Cir. Aug. 8, 2018). In that case, the district court had federal question jurisdiction
in an initial stage of the case, but sua sponte decided not to exercise supplemental jurisdiction
one week before trial was to begin. The Second Circuit vacated and remanded the case,
concluding that the district court had erred by failing to exercise supplemental jurisdiction under
the circumstances. Here, in contrast, all federal question claims were dismissed on the authority
of the Rooker-Feldman doctrine. This court lacked federal-question jurisdiction from the outset
and therefore supplemental jurisdiction over state-law claims was never present.
Further, even if the court had supplemental jurisdiction over his claim, and
Mr. Grundstein had timely served Mr. Mulligan according to the court’s Order, {see Doc. 5), the

12

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 13 of 15

court would nonetheless dismiss the claim. Though Mr. Grundstein styles his claim as against
Mr. Mulligan, the relief he seeks is to set aside the deed transferring ownership of the Lake Eden
camp to Mulligan because—he asserts—he retains all legal interest in the property pursuant to
the August 3, 2007 state court order. As discussed above, Mr. Grundstein’s interest in the
property consists only of a one-quarter interest in the proceeds of any sale.
On April 22, 2011, the state trial court granted his siblings’ motion to amend the partition
award and assigned Mr. Grundstein’s siblings title to the property, leaving Mr. Grundstein only
an interest in the proceeds of any sale.5 The court subsequently denied Mr. Grundstein’s motion
to reconsider. See Levin, 2013 WL 2631310, at *2. The Vermont Supreme Court affirmed the
trial court’s order in April 2013, holding:
To the extent that Grundstein asserts the trial court lacked authority to
amend the partition judgment, he cites no case, statute, or other authority to
support the claim, and we have held that the trial court enjoys broad discretion to
amend a judgment in the interests of justice under the catchall provision of
Rule 60(b)(6). Grundstein makes no showing, moreover, of how the order vesting
title in [his siblings] prejudiced his interests in any respect, inasmuch as it had no
impact on the provision requiring an ultimate sale of the property due to his
failure to make the required buyout payments.
Id. (internal citations omitted). Accordingly, this claim is barred by the Rooker-Feldman
doctrine because it clearly invites review and rejection of a state-court judgment. Mr. Grundstein
lost in state court and now seeks an end-run around the effect of the state-court judgment
rendered before this proceeding commenced. See Exxon Mobil Corp., 544 U.S. at 284. This
court lacks subject-matter jurisdiction over Count IX. Defendant Mulligan’s motion to dismiss
(Doc. 13) is therefore GRANTED.

5 As of 2009, the Vermont Supreme Court had held the partition order was proper and
Mr. Grundstein “did not obtain a fee simple interest in the property ... without first having paid
the money required to obtain such an interest.” Levin v. Grundstein, No. 2008-417, 2009 WL
2427820, at * 1 (Mar. 5, 2009).
13

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 14 of 15

II.

Motions for Sanctions and to Strike
On May 9, 2018, Mr. Mulligan filed a motion for sanctions pursuant to Federal Rule of

Civil Procedure 11. (Docs. 24, 28.) Mr. Grundstein did not respond to the motion for sanctions,
instead filing with the court, on June 18, an Offer of Settlement Agreement (Doc. 25) which
Mr. Mulligan then moved to strike on June 20, 2018 (Doc. 26). Mr. Grundstein filed a response
to the motion to strike on July 9. (Doc. 27.)
The dismissal of Mr. Grundstein’s claim for lack of subject-matter jurisdiction does not
deprive the court of jurisdiction over Mulligan’s motion for sanctions under Federal Rule of
Civil Procedure 11. See Willy v. Coastal Corp., 503 U.S. 131 (1992); Chemiakin v. Yefimov, 932
F.2d 124, 129 (1st Cir. 1991). But a decision on the sanctions issue will require a further
hearing. Counsel for Mr. Mulligan shall advise the court within 10 days whether the motion for
sanctions is withdrawn in light of the court’s ruling or whether Mr. Mulligan wishes to pursue
the motion. If Mr. Mulligan continues to seek sanctions, the court will schedule a hearing.
The motion to strike is DENIED AS MOOT in light of the court’s ruling.
Conclusion
The Vermont Attorney General’s Motion to Dismiss (Doc. 11) and Randall Mulligan’s
Motion to Dismiss (Doc. 13) are GRANTED. Plaintiffs First Amended Verified Complaint
(Doc. 3) is DISMISSED without prejudice.
The Second Circuit has cautioned that the court “should not dismiss a pro se complaint
‘without granting leave to amend at least once,’ unless amendment would be futile.” Garcia v.
Superintendent of Great Meadow Corr. Facility, 841 F.3d 581, 583 (2d Cir. 2016) (per curiam)
(quoting Cuoco v. Moritsugu, 222 F.3d 99, 112 (2d Cir. 2000)). Here, amendment would be

14

Case 5:17-cv-00151-gwc Document 37 Filed 09/07/18 Page 15 of 15

futile; better pleading could not cure the substantive defect of this court’s lack of subject-matter
jurisdiction over Mr. Grundstein’s claims.
In light of the dismissal of the FAC for lack of subject-matter jurisdiction, Mr. Mulligan’s
Motion to Strike (Doc. 26) is DENIED AS MOOT.
The court reserves ruling on Mr. Mulligan’s Motion for Sanctions (Doc. 24). Counsel for
Mulligan shall advise the court within 10 days whether the motion for sanctions is withdrawn in
light of the court’s ruling or whether Mulligan wishes to pursue the motion.
SO ORDERED.
Dated at Rutland, in the District of Vermont, this

7

day of September, 2018.

Geoffrey W. Crawford, Chief Judge
United States District Court

15

Case 5:17-cv-00151-gwc Document 24 Filed 05/09/18 Page 1 of 6

UNITED STATES DISTRICT COURT
FOR THE
DISTRICT OF VERMONT
ROBERT GRUNDSTEIN, ESQ.,
Plaintiff,
v.
LAMOILLE SUPERIOR COURT DOCKET
ENTRIES/ORDERS dated 1/24/12 and 1/8/13
In Lecv 148-8-05, LAMOILLE SUPERIOR
COURT DOCKET ENTRIES/ORDERS dated
6/15/16 (Appellate No. 2106-242) in Lecv
87-4-10, LAMOILLE SUPERIOR CLERK
OF COURT as Docket Administrator (Counts I
Through VII), STATE OF VERMONT/
ATTORNEY GENERAL T.J. DONOVAN, and
RANDALL MULLIGAN,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Civil No. 5:17-cv-l 51

DEFENDANT’S MOTION FOR SANCTIONS PURSUANT TO F.R.C.P. 11
NOW COMES Defendant, Randall Mulligan, by and through his attorney, Rodney E.
McPhee, Esq., of the firm Facey Goss & McPhee, P.C., and hereby moves for sanctions against
Plaintiff Robert Grundstein under F.R.C.P. Rule 11. In support of its motion, the Defendant submits
the following Memorandum of Law and Affidavit of Rodney E. McPhee, Esq.
Factual Background
This matter arises from over ten years of state court litigation involving plaintiff Robert
Grundstein concerning the property Defendant Mulligan ultimately purchased from Grundstein’s
siblings. Grundstein and his three siblings inherited a family camp in Eden, Vermont. Plaintiff had
defended a partition action concerning this property in the Lamoille Division of the Vermont
FACEY GOSS
& McPHEE P.C.
P.O. BOX 578
RUTLAND, VT
05702-0578
(802) 773-3300

Superior Court. On August 3, 2007, Vermont Superior Court Judge Dennis Pearson ordered the

Case 5:17-cv-00151-gwc Document 24 Filed 05/09/18 Page 2 of 6

property be wholly assigned to Grundstein on the condition that he pay each of his siblings $25,000

i

no later than June 1, 2008. If the payments were not made by that date, the property was to be put
up for sale. See Levin v. Grundstein. Vermont Superior Court Order Granting Partition issued
August 3, 2007, Docket No. 148-8-05 Lecv attached as Exhibit A. Plaintiff never appealed the
order, rendering the partition order a final order—although Plaintiff did appeal a series of post­
judgment orders in this and related claims, and lost all of them. See, e.g. Grundstein v. Levin.
Vermont Superior Court Findings of Fact and Conclusions of Law issued June 15, 2016, Docket
i

No. 87-4-10 Lecv attached as Exhibit B (“[T]he partition action itself...was final and absolute; it

|

was never actually appealed by the Plaintiff.. .although it was described in detail, and effectively
‘affirmed’ in the several collateral appeals Grundstein took from other post-judgment orders.”); Id.

i
i

at 7. 1
After Plaintiff failed to pay his siblings to obtain the fee simple interest in the camp, the

f

siblings entered into a purchase and sale contract as authorized by the partition order, however,

1
t

Plaintiff interfered with the sale by refusing to vacate the property or remove personal belongings.

t

The trial court found that plaintiffs multiple post-partition motions and appeals were baseless; that
there was no objectively reasonable basis to believe that they were meritorious; that they were

\

brought by plaintiff “in bad faith and with ill will and actual malice” and “solely out of spite and for
the purpose of thwarting his siblings and preventing them from exercising their rights duly granted
them by the partition judgment. See Grundstein v. Levin. 2017 Vt. Unpub. LEXIS 20, *4,159 A.3d
650 issued February 9, 2017, attached as Exhibit C. The sale fell through because Plaintiff failed
to vacate the property. Id. More litigation ensued, and the Vermont trial court granted the siblings’
motion to amend the partition judgment by assigning them title to the property and granting Plaintiff

!

FACEY GOSS
& McPHEE P.C.
P.0. BOX 578
RUTLAND, VT
05702-0578
(802) 773-3300

i
Plaintiff Grundstein appealed these findings of fact and conclusions of law; the order of damages was modified but
the order was affirmed in all other respects. See Exhibit C.

Case 5:17-cv-00151-gwc Document 24 Filed 05/09/18 Page 3 of 6

a one-quarter interest in the proceeds of any sale. See Exhibit B. The trial court also awarded
attorney’s fees of over $10,000 to the siblings, finding that Plaintiffs “intentional and repeated
efforts to delay and frustrate their established right to sell” the property, in violation of a court order,
entitled them to attorney’s fees under the limited exception to the “American Rule” for wrongful
conduct. Id. Plaintiff even filed an action against the State of Vermont, Judge Dennis Pearson,
Justice Skoglund, Justice Johnson, Justice Burgess, Justice Dooley, and Chief Justice Reiber in this
Court, Case No. 1:1 l-cv-134-jgm, which was dismissed for lack of subject matter jurisdiction.
Eventually, Plaintiff, through his repeated attempts to question the finality, constitutionality,
and/or enforceability of the Vermont Superior Court orders, was found responsible for abuse of
process and sanctioned. See Exhibits B and C.
The Vermont Superior Court and Supreme Courts issued orders awarding or affirming sole
ownership of the property to Grundstein’s siblings. Defendant Randall Mulligan was a bona fide
purchaser who purchased the subject property after the orders became final. He is, essentially, an
innocent bystander who should not be embroiled in Grundstein’s misguided efforts to call the
Vermont Superior Court and Supreme Court orders into question.
Memorandum of Law
The Court dismissed Grundstein’s complaint in Grundstein I for lack of subject matter
jurisdiction, in part because the Court does not have jurisdiction to review final state court
proceedings and rulings. See Grundstein I, Case No. l:ll-cv-134-jgm. Incredibly, Grundstein now
petitions the Court a second time to review final state court proceedings and rulings, naming the
actual state court cases identified by docket number as defendants, along with the Lamoille Superior
Court, the State of Vermont, and Mulligan himself. See generally Plaintiffs First Amended Verified
Complaint (Doc. 3).
FACEYGOSS
& McPHEE P.C.
P.0. BOX 578
RUTLAND, VT
05702-0578
(802) 773-3300

Case 5:17-cv-00151-gwc Document 24 Filed 05/09/18 Page 4 of 6

A pleading “violates Rule 11 either when it has been interposed for any improper purpose,
or where, after reasonable inquiry, a competent attorney could not form a reasonable belief that the
pleading is well grounded in fact and is warranted by existing law or a good faith argument for the
extension, modification or reversal of existing law.” Kropelnicki v. Siegel. 290 F.3d 118, 131 (2d
Cir. 2002) (internal quotation marks omitted). For example, Rule 11 is violated “where it is patently
clear that a claim has absolutely no chance of success under the existing precedents.” Eastwav
Constr. Cofp, v. City of New York. 762 F.2d 243,254 (2d Cir. 1985), superseded on other grounds
by rule.
The Second Circuit Court of Appeals has warned that relitigating matters that have gone to
final judgment, relitigating matters that might have been raised in prior actions, or bringing
otherwise frivolous actions can result in personal liability for monetary or other sanctions—even for
pro se litigants such as Grundstein. See Fed. R. Civ. P. 11; Manwani v. Brunelle. No. 95-6080,1995
U.S. App. LEXIS 39938, 1995 WL 732686 at * 2 (2d Cir. Dec. 8, 1995) (affirming imposition of
monetary sanctions on pro se litigant for relitigation of previously litigated claims); In re MartinTrigona. 737 F.2d 1254 (2d Cir. 1984) (discussing federal courts’ inherent power to protect their
jurisdiction from frivolous, vexatious litigation); Sassower v. Field. 973 F.2d 75, 79-81 (2d Cir.
1992) (affirming imposition of monetary sanctions on F.R.C.P. 11 grounds and under district
court’s “inherent authority to sanction parties appearing before it for acting in bad faith, vexatiously,
wantonly, or for oppressive reasons”), cert, denied, 507 U.S. 1043, 123 L. Ed. 2d 497, 113 S. Ct.
1879(1993).
In this case, Grundstein’s allegations concerning Mulligan seem related to his ownership
interest in the property he purchased from Grundstein’s siblings, but Grundstein does not actually
allege facts that would indicate Mulligan did anything violating or requiring the extension or
FACEYGOSS
& McPHEE P.C.
P.0. BOX 578
RUTLAND, VT
05702-0578
(802)773-3300

!
<

Case 5:17-cv:00151-gwc Document 24 Filed 05/09/18 Page 5 of 6

reversal of a Federal law. See generally Plaintiffs First Amended Verified Complaint (Doc. 3).
Instead, this matter is predicated on Grundstein’s insistence that the Vermont state courts’ rulings
should be relitigated in Federal District Court. Id.
Grundstein’s claims are without merit pursuant to the doctrine of res judicata, which
prohibits litigants from relitigating settled matters. See Allaire Corn, v. Okumus. 433 F.3d 248,24950 (2d Cir. 2006). “New legal theories arising out of the same operative facts will not avoid the
application of res judicata.” Waldman v. Village of Kirvas Joel. 207 F.3d 105, 108 (2d Cir. 2000).
Grundstein goes as far as to name the actual court decisions he wants reviewed as defendants in the
action he filed with the Court. See generally Plaintiffs First Amended Verified Complaint (Doc. 3).
The Court should exercise its authority to sanction Grundstein for acting in bad faith, vexatiously,
and wantonly attempting to call into question state court judgments that gave rise to Mulligan’s legal
ability to purchase and (hopefully) peacefully enjoy, his property on Lake Eden.
Through his actions in this and in the Vermont State courts, Grundstein has shown he is not
likely to stop his pattern of filing repeatedly to question the state court judgments with respect to
this property. See generally Exhibits B and C. As discussed above, Grundstein filed, and this Court
dismissed, a similar action in 2011. Grundstein filed that action in the midst of his campaign in the

■:

state courts to undermine his siblings’ ability to sell the property Mulligan eventually purchased.
Clearly, Grundstein will not stop unless the Court intervenes.
Conclusion
Defendant Mulligan requests that the motion for sanctions be granted in the present case
under F.R.C.P. 11. Mulligan could not have purchased the property on Lake Eden unless the
question of its ownership had been established and settled—which it was, through the proper
channels, after years of litigation in the Vermont state courts. Grundstein therefore filed his
FACEY GOSS
& McPHEE P.C.
P.0. BOX 578
RUTLAND, VT
05702-0578
(802) 773-3300

Case 5:17-cv-00151-gwc Document 24 Filed 05/09/18 Page 6 of 6
I
i

Is

complaint wantonly, vexatiously and in bad faith, seeking redress for matters that have already been
litigated, and should be subject to personal liability for monetary or other sanctions.
WHEREFORE, Pursuant to Rule 11, Defendant respectfully requests that this court sanction
Plaintiff by awarding Defendant reasonable expenses and attorney’s fees, for the cost incurred in
presenting this Motion and defense of Grundstein’s complaint. Defendant further requests the Court
order Plaintiff to sign a bond to secure such expense, and grant such other and further relief the
Court deems just and appropriate.
DATED at Rutland, Vermont this 12th day of April, 2018.

RANDALL MULLIGAN
'/■i

U-

Rodney E. McPhee, Esq.
Melissa Kate Thomas, Esq.
Facey Goss & McPhee, P.C.
71 Allen Street, Suite 401
PO Box 578
Rutland, Vermont 05701
rmcphee@fgmvt.com
kthomas@fgmvt.com

FACEY GOSS
& McPHEE P.C.
P.0. BOX 578
RUTLAND, VT
05702-0578
(802) 773-3300

ease 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 1 of 15

C if v pl­

EMftfCT IF VMttlr
Federal District Court
Vermont

l
2
3

4
5
6
7
8

9
10
11
12
13
14
15
16
17
18
19
20
21

FILE'©

2811 OCT 10 AMll; 01
QLERK

Robert Grundstein Esq.
18 Griggs Road
Morrisville, VT 05661
802-397-8839/rgrunds@pshift.com
Plaintiff
vs

BY.

kfmZ

CvF^TY til*

5:17 cv 00151 gwe

Lamoille Superior Docket Entries/ Orders dated 1-24-2012 and 1-8-2013 in Lecv 148-8-05
Lamoille Superior Docket Entry/ Order dated 6-15-16 (Appellate No. 2016-242) in Lecv 87-4-10
Lamoille Superior Clerk of Court as Docket Administrator (Counts I through VII)
Lamoille Superior Court
P.O. Box 570
154 Main Street
Hyde Park, VT 05655
State of Vermont /Attorney General T.J. Donovan
109 State Street
Montpelier VT 05609-1001

22

23
24
25
26

Randall Mulligan
591 A Cricket Hill Road
Hyde Park, VT 05655

27

28
29
30

31
32
33

First Amended Verified Complaint/Added Count DC
1. Temporary Restraining Order/Injunction under Civ. Rule 65 (Count I Only)
2. Declaratory Relief under 28 USC 22011(A11 Counts)
3. Injunction under Ex Parte Young 209 US 123 for Violations of 42 USC 1983
(Counts I-V and VII-VHI)
4. Action to Set Aside Deed (Count IX)

34

35
36

Parties to This Action

37

38
39
40
41
42
43

Plaintiff

Defendant(s)

Robert Grundstein Esq.
18 Griggs Road
Morrisville VT 05661
802-888-3 3 34/rgrunds@pshift. com

Lamoille Superior Court Docket Entries
Lamoille Superior Docket Administrator
Attorney General T.J. Donovan
Randall Mulligan

44
45

R. Grundstein Esq.

1

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 2 of 15

Table of Contents

i

Page

2
3

1. Statement of Jurisdiction

3

4

2. Introduction

3

5

3. Counts

4-14

Count I
Temporary Restraining Order/Preliminary Injunction/ Declaratory Relief
Illegal Taking of Fee Interest in Real Property without Jurisdiction or Due Process
Count II
Declaratory Relief/Injunction
State Cannot Charge Attorney Fees without Due Process Notice and Hearing
Unconstitutional Practice Custom and Usage
Count III
Declaratory Relief/Injunction re: Lecv 87-4-10 Order of June 15, 2016
$84,000.00 Judgment and Award of Attorney Fees without Notice of Charges
and without Evidence or Compliance with Civ. Rule 11 Is Unconstitutional
Count IV
Declaratory Relief
Vermont Civ. Rule 8 is Unconstitutional and Should Be Amended
A Complaint or Counterclaim Should Articulate Money Damages in a Specific Amount
CountV
Declaratory Relief/Injunction
Violation of Vermont and Federal Law against Excessive Fines
Count VI
Claim under State Law Procedure
Party Claims Should Be Dismissed if Party Refuses to Do Court Ordered ADR
Count VII
Judge Bias Spoils Due Process
Need Peremptory Right of Recusal
Count VHI
Vermont Expedited Appellate Docket is Statistically Biased against Appellants
Violates 14th Amendment Equal Protection
Count IX
Action to Set Aside Deed

4

36

4. Verification

15

37
38

5. Certificate of Notice and Mailing

16

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34

5

6

10

11

12

13

13

14

35

39

R. Grundstein Esq.

2

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Documents Filed 10/10/17 Page 3 of 15

Statement of Jurisdiction
Federal Questions under 28 USC 1331

1
2
3
4

Grundstein brings this claim pertinent to an unconstitutionally vague and unpredictable

5

“use, custom and practice” of judge damages and sanctions imposed without Jurisdiction, Due

6

Process Notice and Hearing and unreferenced to any objective standard such as a state statute or

7

court rules. “Inherent Court Powers” do not give a judge the right to levy fines and take away

8

property without Constitutional limitations and protections. A judgment entered without

9

procedural Due Process is void ab initio, “Griffin v Griffin” 327 U.S. 220.

10

This action cites violations of federal constitutional rights guaranteed in the 1st, 5 ,6

11

8th and 14th amendments to the Constitution. It also asks relief under the Federal Declaratory

12

Relief statute, 28 USC 2201 and "Ex Parte Young".

13
14
15
16
17
18
19

Introduction
State Judge Cannot Remove Property Interests without Due Process/Notice and Hearing
State Judge Cannot Remove Property Interest without Jurisdiction
State Court Imposition of Attorney fees is an “Unconstitutional Usage” exercised without Due
Process Notice and Hearing
Cannot Charge Attorney Fees without Civ. Rule 11 Compliance and Other Procedural
Prerequisites

20

21

The general rule, under state and federal law, is that “judgments are void if the court

22

that rendered it lacked jurisdiction of the subject matter, or of the parties or if it acted in a

23

matter inconsistent with Due Process.”, “Evans v Cote”, 2009 VT 326, citing “Wright, Miller

24

and Kane, Federal Practice and Procedure”, sec 2862 at 326-29 (2nd Ed. 1995)

25

This Complaint is concerned with four orders;

26

1) Order Number 1, dated August 3,2007, (EX 1) in which all legal interest in a subject

27

property was given to Grundstein, subject to an equitable interest in proceeds to former

28

joint tenants (127 Peninsula Road, Eden Mills, VT);

R. Grundstein Esq.

3

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 4 of 15

1

2) Order Number 2, dated January 24, 2012, which, without jurisdiction or due process,

2

illegally removed the interest created in Order 1 and Grundstein’s right to enter and

3

remain on his property (Count I);

4

3) Order Number 3, dated January 8, 2013 which, without jurisdiction or due process,

5

awarded a penalty of $10,000.00 as attorney fees (Ten Thousand Dollars) to plaintiffs

6

without Notice, Due Process, compliance with Civ. Rule 11 or authority (Count IT);

7

4) Order Number 4, dated June 15, 2016, by which damages of $84,000.00 were awarded

8

without notice of charges, presentment of evidence and opportunity to address charges;
Count I
Temporary Restraining Order/Preliminary Injunction/ Declaratory Relief/
Illegal Taking of Fee Interest in Real Property without Jurisdiction
Violation of 5th and 14* Amendment Rights to Property
Violation of Due Process Notice and Hearing

9
10
11
12
13
14
15

1. On August 3, 2007, (EX 1) all legal interest in a subject property (Lake Eden, Vermont)

16

was given to Grundstein, subject to an equitable interest in proceeds to former joint tenants;

17

2. On January 24, 2012, a state judge, acting under color of law, illegally removed this

18

interest and right to enter and remain on his property;

19

3. The judge had lost jurisdiction over this case as stated in his August 3, 2007 order;

20

4. There was no notice or hearing by which Grundstein was notified that his property rights

21

were in jeopardy or that he could have been divested of his property rights;

22

5. There was no statute, rule, mechanism, or procedure by which Grundstein could have been

23

divested of his real property rights. He was not subject to foreclosure.

24

6. Grundstein was divested of his right to own enter and possess his property without

25

reference to law, notice, hearing or any other process recognized at law or equity. It is an
R. Grundstein Esq.

4

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 5 of 15

1

illegal taking;

2

7. This has become an unpermitted practice, usage and custom by J. Pearson at the state

3

level.

4

THEREFORE, Grundstein asks this court for immediate relief by way of Temporary

5

Restraining Order/Preliminary Injunction and for Declaratory relief in acknowledgement of

6

his right to enter, maintain and enjoy his property and direct the Clerk of Courts to strike the

7

January 24th 2012 order which contradicts this right.

8
9
10
11
12

Count II
Declaratory Relief/Injunction
State Cannot Charge Attorney Fees without Due Process Notice and Hearing
State Cannot Makes Determinations in a Case Over Which it has Lost Jurisdiction
Unconstitutional Practice Custom and Usage

13
14

8. Grundstein re-states the prior contents of this Complaint;

15

9. On January 8, 2013, Sua Sponte, without notice or hearing, under color of law, state court

16

judge Pearson levied a penalty of $10,000.00 as attorney fees (Ten Thousand Dollars) against

17

Plaintiff. There was no calculation of how the judge arrived at this figure. It was arbitrary

18

and impossible to anticipate;

19

10. The judge had lost jurisdiction over this case as stated in his August 3, 2007 order;

20

11. There was no notice or hearing by which Grundstein was told that he could be subject to

21

this penalty. See “Lawson’s v Brown’s Day Care Center”, 2004 VT 6, (Eaton, J.);

22

12. There was no Statute, Rule or Procedure by which Grundstein could have been fined

23

under the conditions at that time.

24

13. There was no Civ. Rule 11 motion filed against him which is a necessary pre-condition

25

under Vermont law for attorney fees. Civ. Rule 11 is the mechanism for attorney fees for
R. Grundstein Esq.

5

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 6 of 15

1

actions at law in Vermont. See “Bennington Realty v. Jard Co”, 169 Vt. 538, citing

2

“Cameron v. Burke”, 153 Vt. 565, confirmed by “Agency of Nat. Resources, v. Lyndonville

3

Bank” 174Vt. 498;

4

14. He was not in contempt. He had not violated an injunction or other restriction;

5

15. There was no hearing at which an independent, third party witness attorney testified

6

with respect to the reasonableness of attorney fees as required in Vermont case “Schreck v

7

Black River Brewing”, 643-10-07, Wrcv (J. Eaton)

8

16. Grundstein was penalized without reference to fact, law, notice, hearing or any other

9

process recognized at law or equity;

10

17. This is an unpermitted practice, usage and custom of sanctions at the state level. They

11

may not be practiced in this manner

12

THEREFORE, Grundstein asks this court to enjoin this money charge against Grundstein,

13

declare it void and direct the Clerk of Courts to strike the January 8th 2013 order which

14

publishes this charge.

15

16
17

18
19
20
21

22

Count III
Declaratory Reliefilnjunction re: Pearson Order of June 15, 2016/Docket Number Lecv 87-4-10
Eighty Four Thousand Dollar Judgment and Award of Attorney Fees without Notice of Charges,
without Any Evidence or Compliance with Civ. Rule 11 Is Unconstitutional
Violates 5th and 14th Amendment Due Process, 6th Amendment Right to Confront Evidence and
1st Amendment Right of Meaningful Access to Courts
18. Plaintiff restates the prior contents of this complaint;

23

24

19. In May of 2010, Grundstein filed Case number 87-4-10 Lecv against Defendant M. Levin in

25

Lamoille County Vermont, Superior court;

26

20. Grundstein’s complaint sought damages for Conversion of personal property;

27

R. Grundstein Esq.

6

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 7 of 15

1

21. Defendant Counterclaimed for equitable relief Two of her three claims were struck from the

2

claim; (filing injunction, struck from claim and not litigated), action to import a judgment (struck

3

from the claim and not litigated). A third paragraph was in the Counterclaim (lines 32-35) for

4

money damages which failed to state a claim, recite specific events and dates or amounts;

5

22. A stipulated agreement to conduct mandatory state Alternative Dispute Resolution was

6

signed by Grundstein and counsel for Defendant Levin. ADR is mandatory under VT Court Rule

7

16.3 , the Vermont State Arbitration Act; Title 12, Chapter 192 and the Vermont Uniform

8

Mediation Act; Title 12, Chapter 194;

9

23. Judge Pearson signed the agreement as a stipulated order;

10

11
12
13

24. Grundstein provided a list of suitable mediators;
25. Counsel for Levin refused to participate in mediation, despite the contract obligation and

14

court order to do so;

15
16
17

26. No discovery had taken place prior to the appointed interval for mediation;

18

counsel for Levin;

19

28. J. Pearson refused to enforce his order and mediation did not take place;

27. Grundstein moved the court to enforce its order for mediation and for contempt against

20

21

29. Grundstein moved to recuse J. Pearson. J. Pearson refused to remove himself;

22

23

30. Grundstein moved to change venue. This motion was also refused by J. Pearson;

24

25
26
27
28
29

31. J. Pearson rotated out and J. Tomasi took his place in fall of 2011;
32. Grundstein moved for hearing. Nothing took place;
33. J. Tomasi rotated out and J. Rainville took his place;

30
i

31

34. Grundstein moved for hearing again in early 2013. Nothing was scheduled;

32

33

35. After several years, J. Pearson rotated back in;

34

R. Grundstein Esq.

7

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 8 of 15

1

36. Grundstein moved to have J. Pearson recused. The motion was denied;

2

3

37. Trial on the merits was held on July 6, 2015. It lasted approximately one hour and a half;

4

5
6
7
8
9

38. Defendant Levin did not articulate a cause of action as a basis for a counterclaim;
39. Defendant Levin did not testily;
40. Defendant Levin did not articulate a Counterclaim damage amount in dollars or any

10

other value;

11

41. Defendant Levin did not call any witnesses or provide any extrinsic or documentary

12

evidence to prove a cause of action or damages;

13
14
15

42. Defendant Levin did not provide any evidence of any sort;

16

Answer or establish a counterclaim;

17

44. No notice or offer of proof was made by any party or judge by which judicial notice of

18

facts could have been used as a basis to amend Defendant Levin’s Counterclaim (See Rule of

19

Evidence 201(e) and “In re A.M.” 2015 VT 109 (J. Eaton);

20

45. Defendant never articulated sufficient facts or dates to give notice of any cause of action

21

alleged to have occurred at a specific time;

22

46. Grundstein proved his damages with affidavits and receipts;

43. There were no Civ. Rule 15 motions by which Defendant Levin could have amended her

23

24

47. There were no Civ. Rule 11 motions or hearings for illegal filings, sanctions or practice;

25

26

48. There was no reason to violate The American Rule for attorney fees;

27

28

49. Civ. Rule 11 is the mechanism to charge attorney fees for actions at law in Vermont. See

29

“Bennington Realty v. Jard Co”, 169 Vt. 538, citing “Cameron v. Burke”, 153 Vt. 565,

30

confirmed by “Agency ofNat. Resources v. Lyndonville Bank” 174 Vt. 498.

31

50. There was no basis in law or fact for attorney fees;

32

R. Grundstein Esq.

8

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 9 of 15

1

51. There was no procedural compliance to assign attorney fees against any party. See “Schreck

2

v Black River Brewing” Wrcv 643-10-07 (Eaton, J.) 8-10- 2010, “Lawson v. Brown’s Home

3

Day Care Center, Inc.”, No. 195-9-97 ;

4

52. There was no hearing with independent third party testimony in support of specific dollar

5

amounts for attorney charges as required by Vermont State law. (See “Schreck”, et seq, op cit);

6

53 . There was no proof of malice or outrageous conduct. These not proven at hearing nor was

7

there a required hearing to ascertain the financial effect of an award of punitive damages

8

against the party least able to pay them. See “Coty v. Ramsey Associates, Inc.”, 149 Vt. 451;

9

54. On June 15, 2016, J. Pearson awarded Defendant $84,000.00 (eighty four thousand dollars)

10

and attorney fees;

11

56. The order is angry and unbalanced against Grundstein. It proves personal animus against

12

Grundstein sufficient to establish bias

13

57. J. Pearson claimed Grundstein committed Malicious Prosecution;

14

'

15

58. Grundstein was never accused of malicious prosecution in Levin’s pleadings nor were the

16

prima facie elements contained in Defendant Levin’s counterclaim or anywhere else in the

17

record. Grundstein had never initiated a criminal or civil action against Levin prior to this suit;

18

59. It was impossible to anticipate this order because J. Pearson created it independent of

19

the record, facts, testimony and the pleadings. It was created from his own mind without

20

reference to the case history and transcripts;

21

THEREFORE, Grundstein asks that the order of June 15, 2016 be vacated and declared

22

unenforceable. He also asks for an instruction that the Lamoille Superior Clerk of Courts be

23

directed to strike this order from the docket or to act in conformity with this opinion.

24

R. Grundstein Esq.

9

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 10 of 15

Count IV
Declaratory Relief/Injunction
Vermont Civ. Rule 8 is Unconstitutional
A Complaint or Counterclaim Must Articulate Money Damages in a Specific Amount

1
2
3
4

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29

60. Grundstein restates the prior contents of his complaint;
61. Vermont Civ. Rule 8 does not require a party to articulate a specific dollar amount for
damages in a Complaint or Counterclaim;
62. State and Federal Due Process requires a party to have notice of the potential costs to litigate
or not litigate a case:
“Like the Court, I believe there is a need, grounded in the rule of law itself, to assure that
punitive damages are awarded according to meaningful standards that will provide notice of how
harshly certain acts will be punished....” citing “Philip Morris USA v. Williams”, 127 S. Ct.
1057, 1062 (2007). “Unless a State insists upon proper standards that will cabin the jury’s
discretionary authority, its punitive damages system may deprive a defendant of ‘fair notice... of
the severity of the penalty that a State may impose....” ; citing “BMW v Gore”, 517 U.S. at 574).
63. See also (“Greenup v. Rodman”, (1986) 42 Cal.3d 822, 826):
Ordinarily, “[i]f the recovery of money or damages is demanded [in a
complaint], the amount demanded shall be stated [in the complaint].” (Code Civ. Proc.,
§ 425.10.)
... ,“[D]ue process requires notice to defendants, whether they default by inaction
or by wilful obstruction, of the potential consequences of a refusal to pursue their defense. Such
notice enables a defendant to exercise his right to choose — at any point before trial, even after
discovery has begun — between (1) giving up his right to defend in exchange for the certainty
that he cannot be held liable for more than a known amount, and (2) exercising his right to
defend at the cost of exposing himself to greater liability.” (“Greenup”, supra, 42 Cal. 3d at p.
829.)

30

31

THEREFORE, Grundstein asks this court to declare that Vermont Civ. Rule 8 should be

32

amended to require that damages be articulated in a Complaint or Counterclaim as dollar

33

amounts. He also asks for instructions to the state court that Civ. Rule 8 be applied in its new

34

form to Lamoille Superior defendant Levin’s Answer/Counterclaim on re-hearing in the state

35

court or to strike her Answer/Counterclaim in its entirety and that all damages amounts against

36

Grundstein in Lecv 87-4-10 be enjoined.

37

R. Grundstein Esq.

10

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 11 of 15

1
2
3
4

5
6

Count V
Declaratory ReliefTInjunction
Violation of Vermont and Federal Law against Excessive Fines
Award without Evidence, Due Process or Contemplation of Economic Effect on Party Violates
5th, 6th, 8th and 14th Amendments, Vermont Constitution Article 39 against Excessive Fines and
Vermont Case Law

7

8
9
10

64. Grundstein restates the prior contents of his Complaint;

11

financially;

12
13
14
15
16
17
18
19
20
21
22

66. Under the circumstances of this case, ANY award of money damages is excessive;

65. A judgment of this magnitude (Eighty Four Thousand Dollars) will ruin Grundstein

67. It was impossible to anticipate any damages for Levin’s Counterclaim;
68. There was no evidence for them;
69. Dollar amounts as damages were not articulated in a pleading;
70. There was no cause of action to support an award of damages;
71. There was no evidence of damages;

23

24
25
26

72. They were not litigated or discussed at hearing or anywhere else in motions and pleadings;

27

executed without Due Process, findings of malice, bad faith or evidence;

28

74. There was no state hearing as required in Vermont law to ascertain the financial effect of

29

punitive damages on the person against whom they were levied (Grundstein);

30

“In the course of assessing punitive damages, the financial status of the least wealthy
defendant must be taken into account.”, “Woodhouse v. Woodhouse”, 99 Vt. 91, 155, 130 A.
758 (1925).

31
32

73. The award is excessive and seems to be a judicial Bill of Attainder or punitive damages,

33
34

THEREFORE, Grundstein asks that the award of $84,000.00 in Lamoille Superior court is

35

enjoined and declared unenforceable with instructions to the clerk to strike the order.

36
37

R. Grundstein Esq.

11

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 12 of 15

1
2
3
4
5

6

Count VI
Declaratory Relief Claim under State Law Procedure
Levin Claims Should Have Been Dismissed after Levin Refused to Do Court Ordered ADR
Opposing Counsel Contributed to Delay by Refusing to Participate in Court Ordered ADR
Levin Counterclaim Should Have been Dismissed under State Law
Lower Court Exercised Prejudicial and Unexplained Five Year Delay

7

8
9
10
11
12
13

75. Grundstein restates the prior contents of his Complaint:

14

J. Pearson allowed Levin to remain in contempt of his ADR order.

15

78. Grundstein asked for a hearing several times between 2011 and 2013. It was not set until July

16

of 2015. J. Pearson’s order came out a year later.

17

79. With respect to Vt. Civ. Rule 41(b), a court may dismiss a claim for prejudicial delay. VT

18

found an interval of three months sufficient to dismiss a claim. See “Altman v Altman”, 96 VT

19

485;

20

.. .’’Later that month, defendants’ attorney sent plaintiff a letter at the stated address
containing a proposed discovery schedule. When he did not receive a response, counsel sent
plaintiff another letter in August concerning the proposed schedule. Failing again to receive a
response, defendants’ counsel requested the court to schedule a discovery conference. The court
sent plaintiff a notice on October 6 directing him to appear at a status conference on October 18.
Plaintiff failed to appear at the scheduled conference. Defendants’ attorney thereupon moved to
dismiss plaintiffs action for failure to prosecute under V.R.C.P. 41(b)(2). The court granted the
motion and, on October 31, issued an order dismissing plaintiffs action with prejudice... ”

21
22
23
24
25
26
27
28
29
30

76. Vermont Administrative Order 10, Judicial Canon 3, Section (8), says:
“(8) A judge shall dispose of all judicial matters promptly, efficiently and fairly.”
77. Grundstein filed his case in spring of 2010. J. Pearson refused to enforce his own ADR order.

80. Levin’s claims against Grundstein should have been dismissed after Levin refused to
participate in Court Ordered ADR.

31

THEREFORE, Grundstein asks this court for Declaratory Relief stating that the state court

32

should have dismissed Superior Court Defendant Levin Answer and any Counterclaims.

33
34

R. Grundstein Esq.

12

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 13 of 15

Count VTI
Judge Bias Spoils Due Process
Need Peremptory Right of Recusal

1
2
3
4

5
6
7

Grundstein restates the prior contents of his Complaint;

8

substantive violations against him;

9
10
11
12
13
14
15
16
17
18
19
20
21
22

81. The personal animus against Grundstein is patent in state Judge Pearson’s procedural and

82. This animus is also patent in the tone of his June 15, 2016 order;
83. “When a judge becomes personally embroiled in the controversy with an accused he must
defer trial.....to another judge” (case involved contempt hearing), “Mayberry v. Pennsylvania”
400 U.S. 455(1971).
84. “Even in the absence of a personal attack on a judge that would tend to impair his
detachment, the judge may still be required to excuse himself and turn a citation for
contempt over to another judge if the response to the alleged misconduct in his courtroom
partakes of the character of "marked personal feelings" being abraded on both sides, so that it is
likely the judge has felt a "sting" sufficient to impair his objectivity.” “Taylor v. Hayes”, 418
U.S. 488 (1974
THEREFORE, Grundstein asks for Declaratory and Injunctive Relief against all Lamoille

23

Superior Court orders described in this Complaint (and in particular the June 15, 2016 order) by

24

which Grundstein is ordered to pay damages and is restricted from his own property on Lake

25

Eden.

26
27

28
29
30

31
32

Count VIII
Vermont Expedited Appellate Docket is Statistically Biased against Appellants
Violates 14th Amendment Equal Protection
Appellant Success 15% in “Rocket Docket” vs. 33% with Full Banc of Judges
Three Banc Decisions Have no Precedential Value/Body of Secret Law is Plainly Wrong
Grundstein restates the prior contents of his Complaint;

33

34

84. Grundstein appeal number 2016-242 was before three judges of the Vermont Supreme Court;

35

36

85. An appellant is over 100 per cent more likely to win an appeal before the frill five judge banc

37

of the Vermont Supreme Court compared to the abbreviated three judge banc;

R. Grundstein Esq.

13

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Documents Filed 10/10/17 Page 14 of 15

1

86. See Table 3, pg 286, Journal of Appellate Practice and Process; “To Expediency and Beyond:

2

Vermont’s Rocket Docket”, Tracy Bach. (2002);

3

87. The appellant success rate is 15% on the expedited docket but 33% with a full banc of

4

judges;

5

88. This practice violates Equal Protection. All appellants should have an equal opportunity to

6

conduct a successful appeal;

7

THEREFORE, Grundstein asks this court to declare existing Vermont appellate Expedited

8

Docket procedure to be unconstitutional, for an injunction against orders generated pursuant to

9

defective procedure and for an opinion directing the state appellate court to act in conformity

10

with this opinion.

11
12
13
14
15
16

89. Grundstein re-states the prior contents of this Complaint;

17

90. On August 3, 2007, (EX 1) all legal interest in a subject property was given to Plaintiff

18

Grundstein, subject to an equitable interest in proceeds to former joint tenants (137 Peninsula

19

Road, Eden Mills, VT). See pg. 3, supra;

20

91. This interest was never extinguished at law or equity;

21

92. According to the Eden Vermont Town Record, the subject property was transferred to

22

Randall Mulligan, Defendant, on June 5, 2017;

23

93. Grundstein was not given notice that Mulligan was an interested buyer; -

24

94. Grundstein was not shown or notified of an offer to buy;

25

95. Grundstein was not shown a Purchase and Sale agreement;

26

96. Grundstein did not sign a deed;

Count IX
Cause of Action to Set Aside Deed
Or
Declaratory Relief

R. Grundstein Esq.

14

Complaint/TRO/Injunction/Declaratory Relief

Case 5:17-cv-00151-gwc Document 3 Filed 10/10/17 Page 15 of 15

1

97. Grundstein was never notified that a transfer had been consummated;

2

98. Grundstein was never provided with an accounting;

3

99. Grundstein was never sent any proceeds of sale;

4

100. The subject property could not be sold without Grundstein’s permission and signatures;

5

101. Grundstein has a right to an accounting and any proceeds of sale;

6

102. This court has subject matter jurisdiction for this count pursuant to its supplemental

7

jurisdiction. This count is substantially related to the facts and legal issues in this case;

8

THEREFORE, Grundstein asks this court to set aside the June, 2017 Deed to Randall

9

Mulligan and for an order by which the Eden Town Record is corrected to show Grundstein is

10

the current owner in fee of the subject property, or in the alternative, an opinion concerning the

11

state of the title.

12
13
14
15
16
17
18
19

S/s Rgoert Grundstein
Robert Grundstein Esq.
18 Griggs Road
Morrisville, VT 05661
rgrunds@pshift.com/802-888-3334

20

Verification

21
22

23

I declare under penalty of perjury that the foregoing is true and correct to the best of my
knowledge, information, and belief.

24

S/yRobeff Grundstein
Robert Grundstein Esq.

25
26
27

R. Grundstein Esq.

15

Complaint/TRO/Injunction/Declaratory Relief

